<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                         THURSDAY, MAY 25, 2017

                                        U.S. Senate
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m. in room SD-138, Dirksen 
Senate Office Building, Hon. John Boozman (chairman) presiding.
    Present: Senators Boozman, Cochran, Murkowski, Hoeven, 
Lankford, Kennedy, Tester, Shaheen, Leahy, Baldwin, and 
Manchin.

                  U.S. DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JOHN F. KELLY, SECRETARY


               opening statement of senator john boozman


    Senator Boozman. I call this hearing of the Subcommittee on 
Homeland Security to order. This is my first hearing as 
Chairman of the subcommittee, and it is the subcommittee's 
first hearing to review the fiscal year 2018 Budget request, 
which was submitted to Congress earlier this week.
    I want to begin by thanking the Secretary of Homeland 
Security, the Honorable John Kelly, for being here today. We 
know that you are very, very busy and again appreciate you 
being here.
    Secretary Kelly, we do understand the demands on your 
schedule. Your testimony represents your first appearance 
before this subcommittee in your new role.
    I would also like to welcome the subcommittee's Ranking 
Member, the distinguished senator and my friend from Montana, 
Senator Tester. I am also pleased that Senator Leahy, the vice-
chairman of the full committee, has joined us.
    The Department of Homeland Security plays a pivotal role in 
keeping Americans safe by working to combat terrorism, manage 
our air, land, and sea borders, administer our immigration 
laws, secure critical cyber assets, and prepare for and respond 
to disasters. The tragic events in Manchester, England earlier 
this week remind us of why we must focus on the serious 
challenge of securing our homeland.
    Mr. Secretary, you have dedicated your career to serving 
our national security interests, and in just a few months you 
have proven your ability to lead the Department during a very 
challenging time. This Subcommittee will work to support you 
and the men and women of the Department, who are working every 
day to keep us safe. The Department has been called on by this 
President to refocus its resources on certain national security 
risks and to redouble efforts to enforce our immigration laws. 
We look forward to learning more about how the Department 
proposes to address these needs while ensuring we do not 
neglect the other critical missions of the Department.
    This budget request gets many things right. We have seen 
over the past few months that border security and immigration 
enforcement are closely related. As the new Administration is 
demonstrating, there are consequences for those entering and 
staying in the country illegally, with illegal border crossings 
dropping to historic lows.
    Your budget proposes increased funding for Customs and 
Border Protection and Immigration and Customers Enforcement, 
for both manpower and infrastructure, to continue to reduce 
illegal border crossings. In order to better understand these 
requirements and make the right choices, the Subcommittee must 
get a more comprehensive plan from the Department that details 
how we can be smart about investing in border security and 
interior enforcement.
    Another key component to securing our borders is the United 
States Coast Guard, which this budget generally supports. In 
fiscal year 2017 this Subcommittee delivered significant 
investments to enhance the capabilities of the Coast Guard. We 
identified funding to continue the modernization of the surface 
and air fleets, and we partnered with our Defense Subcommittee 
to begin acquisition of a new polar icebreaker.
    We will have to work again to provide the resources 
necessary to enable the Coast Guard to continue protecting our 
borders, interdicting illegal migrants and drugs, conducting 
search and rescue missions, ensuring the safe navigation of our 
waterways, and maintaining our defense readiness.
    This budget proposal appropriately acknowledges that the 
Federal Government's cyber network is under constant attack. I 
am pleased to see that the request has prioritized funding for 
all four phases of the Continuous Diagnostics and Mitigation 
program. Other Federal agencies must move past the initial CDM 
kick-start provided by the Department and begin properly 
budgeting for their own investment and utilization of this 
system in order to realize its full benefit.
    You have rightly noted in your testimony and through this 
budget proposal that the Department's workforce is its most 
valuable resource and that taking care of the people that work 
to keep us safe each day is a top priority. I hope we will work 
together to ensure that the Department can improve workforce 
recruitment, development, and retention.
    We are aware of the unique stresses caused by the intense 
2016 presidential election campaign. Additional duties, 
increased travel, ongoing investigative work, and the inherent 
requirements of Presidential protection have stretched the 
Secret Service workforce thin. These are the brave men and 
women who put their lives on the line every day to protect our 
top leaders and to prevent interference with our most critical 
institutions. We are optimistic that the additional resources 
provided in the recently enacted appropriations bill will make 
a real difference for the men and women of the Secret Service.
    But workforce challenges span the Department. We need to 
hire and retain more Customs officers, more Border Patrol 
agents, more acquisition experts, and more cyber-professionals. 
We want to help you make the Department of Homeland Security 
the best place to work in the entire Federal Government.
    While this budget proposal makes some smart choices, there 
are also parts of it that are unworkable. Whether we are 
talking about a hardworking Arkansas family or one of the 
largest departments in the Federal Government, when it comes 
time to develop a budget, tough choices have to be made. I have 
no doubt that many tough decisions were made in preparing the 
request, but many of the choices reflected in this budget put 
this subcommittee in a difficult position.
    For instance, it assumes statutory changes to programs that 
Congress would almost certainly be unable to enact before the 
end of the fiscal year. From the proposed increase to airline 
passenger fees, to the significant reductions to assistance for 
state and local partners, to the failure to invest adequately 
in research and development, this budget fails to take into 
consideration many practical realities.
    We ask for your cooperation as we consult with you and your 
staff to make the necessary adjustments to allow this budget to 
work despite these significant challenges.
    We will likely face a very tough appropriations cycle. We 
will certainly be urged to restore many of the significant 
reductions proposed by this budget, and absent some significant 
change to the availability of resources, we are not going to be 
able to fund all of the priorities it outlines. Congress will 
have to make these decisions based on shared priorities and 
with an eye towards risk-based distribution of limited 
resources. We know we can count on your partnership and 
guidance throughout this process.
    Again, Mr. Secretary, we appreciate your testimony and your 
willingness to answer questions from members of this 
subcommittee. I will now turn to our distinguished Ranking 
Member, Senator Tester, and then to our full committee 
chairman, Senator Cochran, and then to our full committee vice 
chairman, Senator Leahy, for any opening remarks that they may 
have before asking Secretary Kelly to proceed with his 
testimony. Then we will allow to each Senator seven minutes for 
any statements or questions that they may have.
    Senator Tester.
    [The statement follows:]
               Prepared Statement of Senator John Boozman
    I call this hearing of the Subcommittee on Homeland Security to 
order. This is my first hearing as Chairman of this Subcommittee, and 
it is the Subcommittee's first hearing to review the fiscal year 2018 
budget request, which was submitted to Congress earlier this week.
    I want to begin by thanking the Secretary of Homeland Security, the 
Honorable John Kelly, for being with us today. Secretary Kelly, we 
understand the demands on your schedule, and we appreciate your 
testimony in what is your first appearance before our Subcommittee in 
your new role.
    I would also like to welcome our Subcommittee's Ranking Member, the 
distinguished Senator from Montana, Senator Tester.
    The Department of Homeland Security plays a pivotal role in keeping 
Americans safe by working to combat terrorism, manage our air, land, 
and sea borders, administer our immigration laws, secure critical 
cyber-assets, and prepare for and respond to disasters. The tragic 
events in Manchester, England earlier this week remind us why we must 
focus on the serious challenge of securing our homeland.
    Mr. Secretary, you've dedicated your career to serving our national 
security interests, and in just a few months, you have proven your 
ability to lead this Department during a very challenging time. This 
Subcommittee will work to support you and the men and women of the 
Department, who are working every day to keep us safe.
    The Department has been called on by this President to refocus its 
resources on certain national security risks and to redouble efforts to 
enforce immigration laws. We look forward to learning more about how 
the Department proposes to address these needs while ensuring we do not 
neglect the other critical missions of the Department.
    This budget request gets many things right.
    We've seen over the past few months that border security and 
immigration enforcement are closely related. As the new Administration 
is demonstrating, there are consequences for those entering and staying 
in the country illegally, with illegal border crossings dropping to 
historic lows.
    Your budget proposes increased funding for Customs and Border 
Protection (CBP) and Immigration and Customs Enforcement (ICE), for 
both manpower and infrastructure, to continue to reduce illegal border 
crossings. In order to better understand these requirements and make 
the right choices, the Subcommittee must get a more comprehensive plan 
from the Department that details how we can be smart about investing in 
border security and interior enforcement.
    Another key component to securing our borders is the United States 
Coast Guard, which this budget generally supports. In fiscal year 2017 
this Subcommittee delivered significant investments to enhance the 
capabilities of the Coast Guard. We identified funding to continue the 
modernization of the surface and air fleets, and we partnered with our 
Defense Subcommittee to begin acquisition of a new polar icebreaker.
    We'll have to work again to provide the resources necessary to 
enable the Coast Guard to continue protecting our borders, interdicting 
illegal migrants and drugs, conducting search and rescue missions, 
ensuring the safe navigation of our waterways, and maintaining our 
defense readiness.
    This budget proposal appropriately acknowledges that the Federal 
government's cyber-network is under constant attack. I am pleased to 
see that the request has prioritized funding for all four phases of the 
Continuous Diagnostics and Mitigation (CDM) Program. Other Federal 
agencies must move past the initial CDM kick-start provided by the 
Department and begin properly budgeting for their own investment and 
utilization of this system in order to realize its full benefit.
    You've rightly noted in your testimony and through this budget 
proposal that the Department's workforce is its most valuable resource, 
and that taking care of the people that work to keep us safe each day 
is a top priority. I hope we will work together to ensure the 
Department can improve workforce recruitment, development and 
retention.
    We are aware of the unique stresses caused by the intense 2016 
presidential election campaign. Additional duties, increased travel, 
ongoing investigative work, and the inherent requirements of 
Presidential protection have stretched the Secret Service workforce 
thin. These are the brave men and women who put their lives on the line 
every day to protect our top leaders and to prevent interference with 
our most critical institutions. We are optimistic that the additional 
resources provided in the recently-enacted appropriations bill will 
make a real difference for the men and women of the Secret Service.
    But workforce challenges span the Department. We need to hire and 
retain more Customs officers, more Border Patrol agents, more 
acquisition experts, and more cyber-professionals. We want to help you 
make the Department of Homeland Security the best place to work in the 
entire Federal government.
    While this budget proposal makes some smart choices, there are also 
parts of it that are unworkable. Whether we're talking about a hard-
working Arkansas family or one of the largest Departments in the 
Federal government, when it comes time to develop a budget, tough 
choices have to be made. I have no doubt that many tough decisions were 
made in preparing this request, but many of the choices reflected in 
this budget put this Subcommittee in a difficult position.
    For instance, it assumes statutory changes to programs that 
Congress would almost certainly be unable to enact before the end of 
the fiscal year. From the proposed increase to airline passenger fees, 
to the significant reductions to assistance for state and local 
partners, to the failure to invest adequately in research and 
development, this budget fails to take into consideration many 
practical realities.
    We ask for your cooperation as we consult with you and your staff 
to make the necessary adjustments to allow this budget to work despite 
these significant challenges.
    We will likely face a very tough appropriations cycle. We will 
certainly be urged to restore many of the significant reductions 
proposed by this budget, and absent some significant change to the 
availability of resources, we are not going to be able to fund all of 
the priorities it outlines. Congress will have to make these decisions 
based on shared priorities and with an eye toward risk-based 
distribution of limited resources. We know we can count on your 
partnership and guidance throughout the process.
    Again, Mr. Secretary, we appreciate your testimony and your 
willingness to answer questions from members of this Subcommittee.
    I will now turn to our distinguished Ranking Member, Senator 
Tester, then to our full committee Chairman, Senator Cochran, and then 
to our full Committee Vice Chairman, Senator Leahy, for any opening 
remarks they may have before asking Secretary Kelly to proceed with his 
testimony. Then we will allow each Senator, in order of arrival, seven 
minutes for any statements or questions they may have

                    STATEMENT OF SENATOR JON TESTER

    Senator Tester. Yeah. Thank you, Chairman Boozman. I 
appreciate your leadership. And good morning, Mr. Secretary, 
and welcome. We are here today, of course, to examine the DHS 
budget for fiscal year 2018 and I think the importance of this 
budget is reflected in the fact that we have the Chairman and 
Ranking Member of the full committee here today.
    I would be remiss if I did not first say that our thoughts 
are with the folks in Manchester, UK, and those affected by a 
senseless act of violence last Monday.
    Before we get into your budget, Mr. Secretary, I want to 
note that the President's budget cuts non-Defense discretionary 
spending by $1.5 trillion over 10 years, including $54 billion 
in fiscal year 2018 in part to help pay for the proposed wall 
in the southern border. This is not a serious proposal and 
would be detrimental to the nation's security, small business, 
agriculture, and education.
    Mr. Secretary, your department is one of the few non-
defense discretionary agencies to receive an increase in the 
President's fiscal year 2018 request. In total, a request 
includes $44.1 billion, an increase of over $1.7 billion over 
the fiscal year 2017 Act that we just passed a few weeks ago, 
which was, by the way, $1.4 billion over the previous year.
    The Department that you lead though has a multitude of 
diverse missions, including border and immigration security, 
protecting our computer networks from cyber-attacks, making 
sure that air travel is secure, helping communities prepare for 
and respond to natural or manmade disasters and monitoring our 
coastlines and our waterways to save lives, intercept illegal 
drugs, and prevent bad actors from invading our ports. The 
lion's share of the increase for DHS is dedicated to border 
security and immigration enforcement coming on the heels of 
that $1.5 billion in GY2017 omnibus.
    Look, I support efforts to strengthen our border, but it 
needs to be done in a smart way. I am concerned about what is 
missing in this budget when it comes to your other priorities, 
priorities like aviation security, maritime security, 
cybersecurity, preparing our communities for natural disasters 
and the possibility of a terrorist attack.
    First, although the threat to aviation is very high. We 
have had classified briefings on this, in fact. But we also see 
budget cuts to several Transportation Security Administration 
(TSA) security programs. Second, the budget relies on a faulty 
assumption that an unauthorized increase in aviation security 
fees will be enacted to offset $530 million in budget 
authority. Third, this budget slashes Federal Emergency 
Management Agency (FEMA) preparedness grants by 30 percent and 
state and local training by 40 percent while threats are more 
diverse than ever. And, fourth and equally troubling, is that 
research development is cut by 21 percent at a time when we 
need to be developing leap ahead technologies to stay ahead of 
our adversaries. I do not think there is a briefing that I go 
to, whether it is this or whether it is military, that do not 
talk about the fact that our adversaries are advancing quicker 
than we are. To cut this budget does not make any sense to me 
at all.
    Finally, on border security we have all heard from the 
President: the wall, the wall, the wall. And frankly, I think 
we need a better strategy, one that is more cost effective, one 
that focuses on proven technology, one that includes metric, 
and one that respects private property rights. I have not seen 
such a plan, but I guarantee you I am going to press for one. 
We cannot spend billions of dollars on a wall at the expense of 
local law enforcement, firefighters, or airport security. And I 
am not convinced that the President's budget makes the 
investments needed to keep America safe.
    It is critical that the Appropriations Committee take the 
appropriate time to work diligently and pass a budget that 
strengthens our national security and secures our borders. I 
know the Chairman has a commitment to that. When I voted for 
your confirmation, Mr. Secretary--and I would do it again 
today--I said you are one of the adults in the room that I am 
depending on to make good decisions for this country's 
security. I still believe that.
    Thank you for being here and I look forward to this 
hearing.
    Senator Boozman. Thank you, Senator Tester.
    Chairman Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much for 
chairing the hearing. We appreciate your leadership and we 
welcome the Secretary and we wish you all the best. We want to 
know what the priorities are for funding. We don't have enough 
money to do everything for everybody who has requests to make 
of the funding levels in this committee, but thank you for 
being here. We are anxious to hear your comments about the 
appropriate levels of funding and the priorities that we need 
to consider in the writing of this appropriations bill.
    Thank you.
    Senator Boozman. Thank you, Mr. Chairman.
    Vice Chairman Leahy.

                   STATEMENT OF SENATOR PATRICK LEAHY

    Senator Leahy. Well, thank you, Mr. Chairman and Ranking 
Member Tester and Chairman Cochran for the opportunity. I will 
make a couple of brief opening remarks. Secretary Kelly, thank 
you for being here today.
    There are many issues to discuss, not the least of which is 
the topic of today's hearing, the budget--President's budget 
proposal, which was just delivered to us on Tuesday, including 
his plans for the Department of Homeland Security.
    Secretary Kelly, I have known you a long time and been an 
admirer of yours. I knew you when you were in the Marine Corps, 
so I will do what Marines are expected to do--speak frankly. I 
think this budget proposal can be summed up pretty quickly--
abysmal. I am not surprised that the budget before us proposed 
billions of taxpayers' dollars to build a misguided wall on the 
southern border to fund the President's deportation force.
    Executive orders mandated these things were among the first 
things that President Trump did when he took office. Now, the 
orders may have fulfilled a promise from the campaign trail. 
Neither is going to do much to enhance our national security or 
our homeland security or our efforts to comprehensively address 
the concerns, the valid concerns, for the immigration system. 
Instead of focusing on real threats, the Administration has 
sought to demonize immigrants, demonize those of certain 
religions, drive them into the shadows, isolate our country, 
alienate our trading partners to the north and south, and throw 
taxpayer money at a problem that requires a serious and 
meaningful and realistic and practical solution.
    I am sure you came here today prepared to talk about the 
southern border. I hope you are prepared to talk about our 
needs along the northern border as well. Vermont is a border 
state. I live an hour's drive from Canada. Our largest trading 
partner is Canada. Our community's drive and economic infusion 
we get from Canadians coming to Vermont to ski, to swim, to 
explore our great Lake Champlain, and to do business. They are 
involved in numerous manufacturing jobs in Vermont.
    But Vermont has taken a hit because of the President's 
action. Our economy is weakened by his action. Fewer people 
want to come and visit and spend money in our state. I hear 
story after story of problems crossing our border, which I 
mentioned is only an hour from my home, the kind of delays they 
are having, delays they cannot understand. And for all of this, 
we are not more secure.
    I mean, while the Trump budget cuts billions of dollars 
from food, nutrition, and assistance, medical research, 
affordable housing program, heating assistance, victims support 
program, legal services, education programs, slashes foreign 
assistance, the assistance that Defense Secretary Mattis has 
said is critical to our national security. Now, the President 
may claim that this budget advances the security of the 
American people. In reality, it makes billions of Americans 
less secure in their daily lives.
    As I said, I have known you a long time. I supported your 
nomination, but this budget, this budget is really a disservice 
to the American people. And as Vice Chairman of this committee, 
I am going to work with Republicans and Democrats to put 
together a budget that puts Americans first.
    And, Mr. Chairman, I thank you for the opportunity.
    Senator Boozman. Thank you, Senator Leahy.
    Let us go ahead and go then to our questioning phase. And, 
Mr. Secretary, while it may be too early to declare victory, it 
is worth noting that the posture you have taken at the 
Department has resulted in the lowest rate of illegal border 
crossings we have ever seen. The change has been remarkable.
    I am sorry. We need your testimony first, so let us go to 
your testimony. As you can see, we are anxious to get out of 
the blocks. We have got lots of questions, but again, we need 
to hear from you first.
    Thank you.

                  SUMMARY STATEMENT OF HON. JOHN KELLY

    Secretary Kelly. Yes, Senator. And Chairman Boozman and 
Ranking Member Tester and all the distinguished members of the 
committee and subcommittee, it is a pleasure to be here to 
answer questions, but most importantly in my mind, to represent 
the men and women of the Department of Homeland Security (DHS).
    I believe, as I know you do, that the role of government 
first and foremost, is to secure its people. A secure homeland 
is one of prosperity where legal trade and travel add to our 
national economy. With legal trade, a secure homeland is one of 
freedom where American citizens can go about their lives 
without fear and a secure homeland is one of laws that we 
enforce to keep our community safe.
    And so it is a great honor and privilege to appear before 
you today to discuss the men and women of the Department of 
Homeland Security and the critical missions they carry out 
every day in service to the Nation.
    On a sad note, and one that makes the point tragically, 
just last night we lost one of our CBP officers down in Texas 
in El Paso, when he was stabbed repeatedly in the face by a 
cartel member whom he identified himself to, and he lost his 
life.
    The President's fiscal year 2018 Budget requests for the 
Department of Homeland Security is never enough, but I think it 
is sufficient to allow me and the men and women to do our jobs. 
We know that the threats are out there. We know that our 
aviation transportation system, in particular is a top prize in 
the eyes of terrorist organizations. We know that transnational 
criminal organizations are bringing drugs across the borders in 
massive amounts by land and sea and air. We know that our 
nation's cyber systems are under constant attack. We know that 
natural disasters devastate American hometowns. We also know 
that DHS is up to the job of protecting the United States 
against all of these threats and many, many more.
    Just last week the Coast Guard cutter, Hamilton, offloaded 
more than 18 tons of cocaine that the Coast Guard had seized in 
international waters off the Pacific Ocean. That is roughly the 
weight of nine cars and is worth an estimated half a billion 
dollars.
    The week before that, May 8th through May 14th, TSA 
discovered 76 firearms on passengers seeking to board 
aircraft--loaded firearms. And in six weeks, U.S. Immigration 
and Customs Enforcement (ICE) arrested more than 1,300 gang 
members in a nationwide gang enforcement operation.
    We are making a difference. We are making our nation more 
secure, but we need a fully funded budget that matches our 
mission without continuing resolutions, and I think this budget 
approaches that.
    The President's fiscal year 2018 Budget requests a $44.1 
billion in net discretionary funding for the Department of 
Homeland Security. It also requests $7.4 billion to finance the 
cost of emergencies and major disasters and FEMA's Disaster 
Relief Fund.
    When you are talking about numbers like that, it is easy to 
lose sight of what is behind each and every dollar, but when 
you get right down to it, behind each and every dollar are 
hardworking men and women who have dedicated their careers to 
protecting the American people. They are taking dangerous 
criminals off our streets. They are keeping terrorists out of 
our country and drugs off of our streets. They are 
investigating crimes with international implications. They are 
making sure passengers get to their destinations safely. They 
are responding to devastated communities in the wake of natural 
disasters. They are patrolling and maintaining our Nation's 
waterways, waterways that support $4.5 trillion in economic 
activity every year.
    Every dollar invested in the men and women of DHS and every 
dollar invested in the tools, the infrastructure, equipment, 
and training they need to get the job done is an investment in 
prosperity, freedom, and the rule of law. It is an investment 
in the security of the American people. There is no greater 
responsibility, as I mentioned, in a time of no greater need.
    I would be remiss if I did not mention the terrorist attack 
in Manchester as you did. Our friends in the U.K. suffered a 
terrible loss. Their enemy is our enemy. The U.S. Government 
continues to work furiously with the British, the Federal 
Bureau of Investigation (FBI), the intelligence community, DHS, 
and others to assist their investigation in any way we can. For 
my part, I immediately called the Home Secretary, offered our 
nation's condolences, and asked if there was any help we 
could--that we were not getting from the United States. I want 
to assure you that as this enemy is evolving, becoming more 
reprehensible, even targeting children, DHS is working every 
day to meet the threats.
    I appreciate the opportunity to appear here before you 
today. I thank you for your continued support. I remain 
committed to working with Congress and protecting the American 
people. And, sir, I stand by to answer any questions.
    [The statement follows:]
                Prepared Statement of Hon. John F. Kelly
    It is a great honor and privilege to appear before you today to 
discuss the Department of Homeland Security's (DHS) crucial missions of 
protecting the homeland and securing our borders.
    The men and women of DHS are exceptional and dedicated 
professionals who work tirelessly in support of our mission to 
safeguard the American people, our homeland, and our values with honor 
and integrity. I am pleased to appear before you to present the 
President's fiscal year 2018 Budget request for the Department of 
Homeland Security.
    The President's Budget puts America first, and builds on DHS's 
accomplishments over the past 14 years. It makes critical investments 
in people, technology, and infrastructure for border security and the 
enforcement of our immigration laws. It advances cybersecurity 
programs, strengthens our biometric identification programs, promotes 
the expansion of E-Verify, and supports our new Victims of Immigration 
Crime Engagement (VOICE) Office. The Budget also sustains the U.S. 
Coast Guard (USCG), our nation's fifth service, to continue its 
important mission of ensuring maritime safety, security, and 
stewardship.
    DHS is committed to the rule of law. Our men and women take an oath 
to defend the Constitution of the United States and uphold the laws of 
this great country against all enemies--foreign and domestic--and we 
get it done. We face diverse challenges and adversaries that do not 
respect the rule of law, or our borders. Our government must remain 
vigilant in detecting and preventing terrorist threats, including 
threats we face from ``lone offenders,'' who may be living in our 
communities and who are inspired by radical, violent ideology to do 
harm to Americans. I remain committed to tirelessly protect our country 
from threats, secure our borders, and enforce our laws--all while 
facilitating lawful trade and travel, and balancing the security of our 
nation with the protection of privacy, civil rights, and civil 
liberties.
    The President's fiscal year 2018 Budget requests $44.1 billion in 
net discretionary funding for the Department of Homeland Security. The 
President's Budget also requests $7.4 billion to finance the cost of 
emergencies and major disasters in the Federal Emergency Management 
Agency's (FEMA's) Disaster Relief Fund.
    In order to ensure we are stretching every one of these dollars, we 
are striving to further improve information sharing, collaboration, and 
transparency, all of which are essential to leveraging the full value 
of every dollar DHS receives. We are expanding our cooperation with 
State, local, tribal, territorial, and regional partner nations, 
particularly Canada and Mexico. These partnerships are critical to 
identifying, monitoring, and countering threats to U.S. national 
security and regional stability.
    I am also working to improve transparency and information sharing 
across the DHS enterprise to build efficiencies into our intelligence 
processes. An example of this is my ongoing support of DHS's Joint Task 
Forces, which link the authorities and capabilities of multiple DHS 
components in a unified approach that addresses emerging and priority 
threats to our nation. The magnitude, scope, and complexity of the 
challenges we face-- including illegal immigration, transnational 
crime, human smuggling and trafficking, and terrorism--demand an 
integrated counter-network approach.
    Border security is a high priority, and involves protecting 7,000 
miles of land border, approximately 95,000 miles of shoreline, and 328 
ports of entry along with staffing numerous locations abroad. We 
appreciate the support Congress has provided to improve security at our 
borders and ports of entry. With that support, we have made great 
progress, but more work must be done.
    The President's Budget requests $1.6 billion for 32 miles of new 
border wall construction, 28 miles of levee wall along the Rio Grande, 
where apprehensions are the highest along the Southwest Border, and 14 
miles of new border wall system that will replace existing secondary 
fence in the San Diego Sector, where a border wall system will deny 
access to drug trafficking organizations. The Budget also requests $976 
million for high-priority tactical infrastructure and border security 
technology improvements for U.S. Customs and Border Protection (CBP). 
Under the President's Executive Order No. 13767, Border Security and 
Immigration Enforcement Improvements, CBP is conducting risk 
assessments to the needs of frontline officers and agents that will be 
used to tailor an acquisition strategy going forward.
    While technology, equipment, and physical barriers certainly help 
secure our borders, we also must have more boots on the ground. I 
remain committed to hiring and training new Border Patrol agents and 
commensurate support personnel as supported by the President's Budget 
and Executive Order No. 13767. Let me be clear, we will maintain our 
standards, yet we will streamline hiring processes. This includes 
initiatives like waiving polygraph testing requirements for qualified 
Federal, State, and local law enforcement officers, as well as members 
of the Armed Forces, veterans, and members of the Reserves or the 
National Guard, as contemplated by legislation now pending before the 
Congress. On a broader scale, my Deputy Secretary, Elaine Duke, and I 
are working hard across DHS to attract, retain, and enhance career 
opportunities for our workforce.
    Effective border security must be augmented by vigorous interior 
enforcement and the administration of our immigration laws in a manner 
that serves the national interest. As with any sovereign nation, we 
have a fundamental right and obligation to enforce our immigration laws 
in the interior of the United States--particularly against criminal 
aliens. We must have additional U.S. Immigration and Customs 
Enforcement (ICE) Enforcement and Removal Operations (ERO) officers to 
expand our enforcement efforts. The fiscal year 2018 Budget requests 
over $7.5 billion in discretionary funding for ICE to support both the 
expansion of transnational criminal investigatory capacity within 
Homeland Security Investigations (HSI) as well as ERO's expanded 
targeted enforcement activities, including increases for more than 
51,000 detention beds to accommodate expected increases in interior 
arrests of criminal and fugitive aliens, associated transportation and 
removal costs, and an estimated 79,000 participants in ICE's 
Alternatives to Detention Program contract. Included in the request is 
$185.9 million to hire more than 1,600 additional ICE ERO officers, HSI 
agents, and support personnel.
    Detaining illegal aliens, and deporting them to their countries of 
origin, does not address the needs of members of our public who have 
been the targets of their crimes. For this reason, the Budget also 
requests an additional $1 million to enhance the current operations of 
DHS's new VOICE Office, which supports victims of crimes committed by 
criminal aliens. As I have noted before, all crime is terrible, but 
these victims are unique because they are casualties of crimes that 
should never have taken place. The people who victimized them should 
not have been in this country in the first place.
    To protect the American people, we must continue to improve our 
identification verification and vetting processes.
    E-Verify is currently a voluntary program administered by U.S. 
Citizenship and Immigration Services that deserves more of our 
attention. Through E-Verify, our nation's employers verify the 
employment eligibility of their employees after they are hired, which 
in turn helps protect American workers from unfair competition. The 
President's Budget requests $131.5 million for E-Verify operations, 
which includes an additional $15.2 million for expansion of the program 
to support the mandatory use of E-Verify nationwide within 3 years--
should Congress provide the authority to do so. We appreciate the 
continued support of Congress for this program.
    Biometrics is another critical DHS identification and verification 
initiative, and I am committed to the pursuit of robust capabilities in 
this area. The Budget requests $354 million to support biometric 
initiatives. We continue to make progress on the Biometric Entry-Exit 
System, with the goal of making air travel more secure, convenient, and 
easier.
    The threat to aviation security remains high, and criminals and 
terrorists continue to target airlines and airports. We must continue 
to improve how we screen the belongings of travelers and cargo. We are 
in the business of protecting lives, and improved screening 
technologies coupled with additional Transportation Security 
Administration (TSA) Officers working security functions at the 
checkpoints, will help us deter, detect, disrupt, and prevent threats 
to aviation security. DHS continues to prioritize explosives screening, 
threat assessments, and detection capabilities, and the President's 
Budget includes $77.0 million for research and development in this 
area. The Budget also includes $277.2 million for checked baggage 
screening and explosives detection equipment.
    Currently, TSA Officers screen more than two million passengers and 
their belongings each day, and this number is growing. Additional TSA 
Officers must be deployed to airport checkpoints to meet the increasing 
volume of travelers. The President's Budget offers a sound, two-part 
approach to meeting this challenge. First, the Budget proposes a much-
needed increase in TSA passenger fees--only one dollar, changing the 
fee from $5.60 to $6.60, for each one-way trip. While Congress 
previously denied this increase, Congress must act now in order for TSA 
to continue to meet its mission to protect our nation from ever 
evolving security threats.
    Second, the Budget proposes that TSA cease staffing airport exit 
lanes, which will enable placement of an additional 629 TSA Officers at 
the checkpoints. This solution reflects risk-based analysis; TSA 
Officers are specially trained to ensure no metallic or non-metallic 
threat items make it onboard planes. Their security screening skills 
and expertise are not being put to good use while staffing airport exit 
lanes, and this is a waste of taxpayer dollars.
    The President also requests $8.4 billion in operating expenses and 
recapitalization costs for USCG to promote maritime safety and 
security. Increases to Coast Guard's operating budget will ensure the 
agency keeps parity with the pay and benefits increases provided to the 
other armed services. Additionally, the Budget funds the crewing and 
maintenance requirements for all new ships and aircraft scheduled for 
delivery in 2018. Within the $1.2 billion request for Coast Guard's 
acquisition programs, $500 million is provided to contract for the 
Coast Guard's first Offshore Patrol Cutter and long lead time material 
for the second OPC.
    In addition to our physical security and protection activities, we 
must continue efforts to address the growing cyber threat, illustrated 
by the real, pervasive, and ongoing series of attacks on public and 
private infrastructure and networks. The fiscal year 2018 Budget 
includes approximately $971.3 million for the National Protection and 
Programs Directorate's cybersecurity activities, including $397 million 
for continued deployment and enhancements for EINSTEIN, which enables 
DHS to detect and prevent malicious traffic from harming Federal 
civilian government networks. It also provides $279 million for our 
Continuous Diagnostics and Mitigation Program to provide hardware, 
software, and services to strengthen the security of Federal civilian 
``.gov'' networks.
    DHS also must be vigilant in preparing for and responding to 
disasters, including floods, wildfires, tornadoes, hurricanes, and 
other disasters. The fiscal year 2018 President's Budget reflects 
FEMA's efficient use of taxpayer dollars to improve the nation's 
resilience from disasters. FEMA will prioritize programs that 
contribute most significantly to its emergency management mission, 
streamline business processes, harness innovative technologies, and 
better utilize public and private sector partnerships. The President's 
Budget requests $7.4 billion to support disaster resilience, response, 
and recovery, primarily through the Disaster Relief Fund.
    The Budget provides $1.9 billion for FEMA's grant programs that 
support State, local, territorial, and tribal governments to improve 
their security and resilience posture against risks associated with 
man-made and natural disasters. It represents a continued investment in 
State and local preparedness while spending taxpayer dollars on 
programs that make the most difference. The Budget also proposes a 25 
percent non-Federal cost-share for those preparedness grants that do 
not currently have a cost-share requirement. By using a cost-sharing 
approach, Federal dollars are spent on activities that our non-Federal 
partners themselves would invest in, providing clear results in 
priority areas.
    In addition to protecting our nation's financial infrastructure, 
under the leadership of our new Director Tex Alles, the men and women 
of the U.S. Secret Service (USSS) protect our nation's highest elected 
leaders, visiting foreign dignitaries, facilities, and major events. 
Using advanced countermeasures, USSS conducts operations to deter, 
minimize, and decisively respond to identified threats and 
vulnerabilities. The President's Budget includes $1.9 billion to 
support USSS's missions, including investment in of advanced 
technologies and task force partnerships to enforce counterfeiting 
laws, and safeguard the payment and financial systems of the United 
States from financial and computer-based crimes. The funding also 
supports 7,150 positions--the highest staffing levels since 2011, and 
includes Presidential protection in New York and much-needed 
enhancement of technology used to protect the White House.
    In closing, the challenges facing DHS and our nation are 
considerable. We have outstanding men and women working at DHS who are 
committed to protecting our homeland and the American people. The 
President's fiscal year 2018 Budget request recognizes our current 
fiscal realities, as well as the serious and evolving threats and 
dangers our nation faces each day. You have my commitment to work 
tirelessly to ensure that the men and women of DHS are empowered to do 
their jobs.
    Thank you again for the opportunity to appear before you today and 
for your continued support of DHS. I remain committed to working with 
Congress, and look forward to forging a strong and productive 
relationship to prevent and combat threats to our nation.
    I am pleased to answer any questions.

                            BORDER SECURITY

    Senator Boozman. Thank you, Mr. Secretary. We do appreciate 
your testimony very, very much, this and your written 
testimony.
    While it may be early, too early to declare victory, it is 
worth noting that the posture you have taken at the Department, 
along with the hard work of the men and women of the agency, 
has resulted in the lowest rate of illegal border crossings we 
have ever seen. The change has been remarkable. Your budget 
request increases funds for Customs and Border Protection to 
secure the southwest land border, but your entire department is 
tasked with keeping bad people and bad things out of the United 
States.
    And the question I have is it correct to think of what has 
been referred to as ``the wall'' as an entire border security 
system that includes people, technology, and physical barriers 
intended to control who and what comes into the United States?
    Secretary Kelly. I am sorry, sir. I missed part of the 
question.
    Senator Boozman. Well, again, ``the wall''----
    Secretary Kelly. Right.
    Senator Boozman. You know, which we hear, you know, 
constantly referred to.
    Secretary Kelly. Yes, sir.
    Senator Boozman. Is it correct that this security system is 
part of the entire, apparatus that includes people, technology, 
physical barriers to control who and what comes into the United 
States?
    Secretary Kelly. Sure. Yes, sir. As I am sure the Senator 
knows, the committee knows, that right now we have about 650 
miles of the border covered with some type of physical barrier. 
Where there is physical barrier, where it makes sense, it 
really does work. The first thing I did and I continue to do on 
this topic and many others is to talk to the people who 
actually execute the policy down on the border.
    So immediately after taking office I visited the Texas 
border, the Arizona border. I have been back down a couple of 
times to visit additional border sites. I have spoken to 
mayors, big city mayors or mayors down along the border, 
obviously the police officers, local law enforcement as well as 
my people, CBP, Customs and Border Protection. They all believe 
that physical barriers in certain places would really enhance 
the security mission that they do every day.
    So we have 650 miles of some type of barrier there now. We 
want to improve on that. I am already asking, as I say, the CBP 
professionals, ``Where do you want a wall right away?'' In some 
cases they say, ``Sir, the part of the border that I patrol, we 
do not see much need for a wall in this region.'' In other 
places, they are very precise. They will say, ``Sir, if you can 
get me like 13 more miles of wall or 26 more miles of wall.'' 
When I say wall--physical barrier. So they know what they want, 
and I want to support them.
    In South Texas, as an example, down there, Southern Rio 
Grande Valley, a wall-wall, concrete structure, makes sense 
because actually there is a wall there now, and it reinforces 
the levy system in that region. There are other parts of the 
border where we already have what is called bollard fencing 
that is up. It is a picture of big metal fence, kind of picket 
fence. The members of CBP, generally speaking, want to be able 
to see through this structure, whatever it is, for two reasons: 
if they see people congregating on the other side or movement 
on the other side. By the same token, people on the other side 
can see them and they are deterred from trying to get into the 
country.
    So we are looking at it. I think the committee knows that 
we--we are working with construction proposals right now to 
decide what works best. And as I say, in some places, it may be 
a concrete structure. In other places, it may be a metal 
barrier, a fencing type structure. We are looking at that. And 
then throughout all of that, of course, we need the 
professionals, CBP, working at the border whether there is a 
wall there, a structure there or not. And then technology plays 
in this as well.
    So the whole structure or the whole issue of border 
protection, in my view, does, in fact, require a physical 
barrier where it makes sense, certainly technology where we can 
employ it, and then finally backed up by the--patrolled by the 
great men and women of CBP and the rest of DHS.

                  BORDER SECURITY: COMPREHENSIVE PLAN

    Senator Boozman. Very good. Thank you.
    Mr. Secretary, the recently enacted Appropriations Bill 
requires that you provide a comprehensive plan to Congress that 
details exactly how we intend to secure the southwest land 
border and you talked about it a little bit then. Do you 
anticipate this plan will call for different solutions at 
different places?
    So, as you mentioned, at some point I guess what we would 
like to know is when we will receive that plan. We are very 
interested in actually seeing that on paper. I understand the 
concept. I think, you know, what you said the committee would 
agree with, that we have got all of these things, really 
including the personnel, whether it is research, cyber, all of 
these things that have to do with securing the border. But at 
what point will we be able to actually see the plan?
    Secretary Kelly. As soon as I can complete it. And I am not 
making a joke. You know, 2,000 miles of border and literally, 
as I say, there are places where we need either technology, 
more people, or physical barriers. There are places there that 
CBP tells me, ``Sir, we need it right away.'' There are other 
places that we do not need it for, you know, a year or two or 
three. So as we put that plan together, we will come up, brief 
it, and I think you will be impressed.

                 CONTINUOUS DIAGNOSTICS AND MITIGATION

    Senator Boozman. No, and I think that is an excellent 
answer. Again, the fact that one size does not fit all is clear 
as you look at the challenge.
    The Federal Government's computer networks are under 
constant attack. We have worked with the Department to ensure 
the continued deployment of capabilities like Continuous 
Diagnostics and Mitigation, but remain frustrated by the 
Department's inability to maintain a predictable schedule and 
to urge other agencies to chip in and adopt the technology.
    Are we making progress towards meeting phase 3 and 
embarking on phase 4 of the CDM program? Also, what is the 
Department doing to encourage other departments and agencies to 
assume more responsibility for the funding of CDM beyond the 
initial phases?
    Secretary Kelly. It is not moving fast enough. A hundred 
and twenty days in the job, it is a priority. Clearly, it is a 
priority for the President. One of the things--not that I 
needed the help--because there is a new team, fresh team in 
place that recognized the issues, the threats of--when I say a 
new team in place, everyone from--well, all of the department 
heads, my fellow Cabinet members throughout the government. 
They understand the threat. They understand the need for it. Of 
course, the President put out a cyber executive order, but we 
are pressing forward on that.
    And I know you are frustrated. It is one of those things 
that we are working very hard to change. In fact, I would just 
mention to try to change the--we are changing the attitude 
within my department toward this institution, that is the 
United States Congress. The one thing that was constant during 
my period of office calls and whatnot in my confirmation 
process was that my department, our department, was the worst 
for responding to Congressional inquiries, letters and things 
like that.
    I hired the best Congressional type liaisons whom I knew--
whom I know. They are in place now. We are leaning forward, and 
I promise you that our response will be much better than it has 
been in the past. That is not to say that my predecessor was 
anything other than a great professional, but we do have a new 
attitude toward not only the Congress, but the press, and we 
are trying our best to respond.
    And frankly, just anecdotally, I have talked to a few 
Senators, a few Congressmen, about it and they said, ``No, you 
have actually gotten much better.'' Much better is nice to 
hear, but it is not enough for me, so.
    Senator Boozman. Well, on behalf of the entire committee, I 
know that that is encouraging and we appreciate you doing the 
very best that you can to get back to us in a timely manner.
    Senator Leahy.

                           TRAVEL BAN: MUSLIM

    Senator Leahy. Thank you. Thank you, Mr. Chairman.
    And, Secretary Kelly, I want to start off in discussions 
about building the wall, asking if the check is in the mail 
from Mexico, but you can keep watching the mail. I do not think 
it is being sent by express mail.
    Now, on the campaign trail, President Trump promised his 
supporters a total and complete shutdown of Muslims entering 
the United States. He has taken office. He has twice tried to 
block individuals from six Muslim majority countries from 
entering our country. I mention that not as a political thing, 
but the practical effect of it, it actually has an effect on 
Vermont's economy. As I said, we border Canada.
    One Vermonter recently wrote to me about the Toronto school 
district's ban on student trips to the United States because of 
what has been said about Muslims. And this Vermonter writes, 
``Vermont relies heavily on Canadian student destination trips 
as a driver of the more than $3 billion the tourism sector 
generates within the state.'' This is a state of only 625,000 
people, so $3 billion is a big factor. Other Vermonters, 
innkeepers, resort operators, and restaurant owners have 
contacted me about the cancellations they have received from 
Canada.
    The President claims this blanket travel ban is necessary 
for our national security because individuals from certain 
countries pose too great a risk of terrorism. I have never felt 
terrorized and I have gone to Canada. Even with my limited 
French in the province of Quebec, my wife's relatives treat me 
with some respect.
    But is citizenship alone without any additional evidence a 
reliable indicator of the terrorist threat?
    Secretary Kelly. Is citizenship alone? No, sir.

                        HIGHGATE POINT OF ENTRY

    Senator Leahy. Good. I asked then Director Comey this same 
question and he gave me the same answer. Your department, from 
the Office of Intelligence and Analysis, concluded that 
citizenship is unlikely to be a reliable indicator of potential 
terrorist activity any more than it was in right when the 
biggest terrorist acts in the United States, the Oklahoma City 
bombing.
    Now, I also mentioned earlier about our border crossing. 
Hardly a week goes by--sometimes not a day goes by without a 
Vermonter or Vermont business letting me know about long delays 
at Vermont's Highgate port of entry. Wait times are impacted, 
not just tourism, but business very substantially. And I know 
that since 2009, CBP in Vermont has lost 25 percent of its 
staff at ports of entry. I know many of the people that work 
there. They are fine men and women, but it makes it harder to 
do their job. And then if they have long lines of top of that 
with travelers who are so used to going back and forth between 
Vermont and Canada or upstate New York and Canada, they can get 
pretty angry. That does not help with the whole thing.
    So I have been asking--since the beginning of April I have 
been asking CBP to brief my staff about how they plan to 
improve the situation at Highgate. I have not been able to get 
a response, but finally this week--probably because they knew I 
might ask this question with you here--they scheduled a 
briefing in June. I want to know will you look at this problem 
at our port of entry and will you see if there is some way to 
address it so we do not have these delays which actually almost 
seem insulting to a friendly neighbor.
    Secretary Kelly. Absolutely, sir. And let me say I 
apologize for that and I will have someone over here this 
afternoon to brief your staff on this topic. And I know Ben 
Cassidy right now is texting someone over at CBP to do just 
that, so you will have someone over here this afternoon.

                    BORDER SECURITY: NORTHERN BORDER

    Senator Leahy. And you know the amount of respect I have 
for Colonel Cassidy, so I will look forward to that.
    I think we need more help. We need more officers on our 
northern border. We always address the southern border and I 
understand the reason for that. I am not disparaging that. But 
the northern border, for example, Canadians use a camera system 
to process the NEXUS lane as opposed to a staffed booth. Have 
we even considered something like this, a U.S. inbound NEXUS 
lane using a camera system rather than when we are shorthanded 
anyway having it manned?
    Secretary Kelly. Yes, sir. We are looking at all--I mean, 
there is a whole series of things we are looking at technology 
wise, facial recognition technology, that kind of thing. We are 
already working inside Canada to preapprove vehicles. I mean, 
they are really hitting it very, very hard.
    I was just--I have been to Canada since I have been in the 
job. I was on the border. The good news is our border with 
Canada is the, to use their term, the thinnest in the world, 
meaning it is about as open as it can be. Now, it is not 
totally open obviously, but at the ports of entry, we're trying 
very, very, very hard to improve. As I think the Senator would 
agree, over the years as commerce has increased with Canada, we 
are probably not far enough out front on these kind of measures 
to speed up the passage.
    One of the things, certainly, the President told me when I 
took this job, the one point, you know, a number of discussion 
points about the borders and what I should do and what I should 
perhaps not do. But one of the things he said, we have to not 
impede the normal legal human and things traffic, vehicular 
traffic, through the border. If anything, we should speed it 
up. So I have that border--when we get a commissioner approved, 
that will be his number one task for me; to look at the ports 
of entry and do the best he can, the best we can to improve the 
efficiency, the movement, working with both Canada and Mexico.
    And I should say--my time is up--but what I should say is 
that my relationship with my counterparts in Canada and in 
Mexico just could not be better and are getting better every 
day. So regardless of what you might hear back and forth at a 
higher level than me, we are working shoulder to shoulder with 
our Canadian brothers and sisters and Mexicans as well, not the 
movement of commerce immigration, but also just other aspects 
of border security. It is an amazing amount of collaboration.
    Senator Leahy. You know, from your own career, the number 
of countries that have to fear militarily and all, countries on 
their borders, we are fortunate to have countries on both our 
borders.
    Secretary Kelly. Right.

                            SANCTUARY CITIES

    Senator Leahy. Where we have open commerce, families, 
everything else. I do not want to change that and I will submit 
the rest of my questions for the record, but I also want to 
talk to you at some point about the so-called sanctuary cities. 
I do not want to cut law enforcement in these cities to make a 
political point because in the long run we are all going to 
suffer.
    Secretary Kelly. Neither do I, Senator.
    Senator Leahy. Thank you. Thank you, Mr. Chairman.
    Senator Boozman. Thank you, Senator.
    Chairman Cochran.
    Senator Cochran. Mr. Chairman, thank you.

    U.S. ARMY ENGINEER RESEARCH AND DEVELOPMENT CENTER: VICKSBURG, 
                              MISSISSIPPI

    I join you in welcoming and expressing our appreciation to 
the witness for his help in figuring out appropriate funding 
levels for the activities under the jurisdiction of the U.S. 
Army Engineer Research and Development Center in Vicksburg, 
Mississippi. We have supported research requirements for the 
Department over the years at that site, and most notably there 
have been successes in new developments of technologies and 
critical infrastructure protection, and at all Federal 
laboratories and research centers that contribute to our 
knowledge of how to do a better job of assuring our safety and 
security.
    I want to ask you the response you have about the 
suggestion that the facility at Vicksburg which covers the 
entire nation in terms of producing solutions that face us in 
ever changing threats to our national security. Will these 
resources continue to be actively utilized?
    Secretary Kelly. Well, sir, in our quest to stay out in 
front of the threats, whether it is a government-run lab or the 
civilian industry, whether it is the defense industry or 
technology industry, techno industry. We are in a never-ending 
quest to buy the right kind of equipment or get the right kind 
of capability to protect the nation. So I am not familiar with 
the lab, but I will certainly get smart on that, and I can get 
back to you with an answer in more detail.
    But again, we are--every good idea, in my mind, is a--every 
idea is a good idea until we prove it not to be useful. It is a 
constant quest. I have an S&T, science and technology, section 
that is just world class. And it is in contact with every 
conceivable lab industry and when we say we need something, as 
an example, we are looking for kind of the technology after 
next in terms of aviation safety and S&T is already beating the 
bushes worldwide to look for the kind of technology. So we are 
very open to good ideas from any source.
    [The information follows]

    S&T has enjoyed a productive relationship with the U.S. Army 
Engineer Research and Development Center (ERDC). ERDC has supported 
S&T's research requirements, and S&T has experienced several successes 
in developing new technologies and critical infrastructure because of 
ERDC's capabilities.
    Most of S&T's work with ERDC has been in resilience. For example, 
ERDC was instrumental in the development of a levee plug, underwater 
surveillance, blast analysis for critical infrastructure, advanced 
materials design (e.g., ultra high performance concrete), and bridge 
vulnerability analysis. In addition, in fiscal year 2015, S&T sent $3 
million to ERDC focused on three efforts:
  --Large scale homemade explosive testing. S&T contributed to a multi-
        agency collaboration for a complementary test series of up to 
        10,000lbs of homemade explosive (HME) that include safety, 
        performance, equivalency, and witness tests.
    --The objectives of the testing are related to safety, handling and 
            storage, standard detonation testing and analysis, and 
            scaled blast effects testing to address the challenges 
            associated with non-ideal explosives within the blast and 
            infrastructure modeling community.
  --Tunnel mitigation. An IED attack in an underwater transit tunnel 
        may cause tunnel breach and widespread flooding. The project is 
        designing internal material hardening schemes to protect subway 
        tunnels from explosive attack.
  --Bridge protection from VBIED attacks. A VBIED can severely damage 
        suspension bridge towers and cause catastrophic bridge failure. 
        S&T partnered with the Golden Gate Bridge Authority to develop 
        and test protective measures to prevent the spread of damage to 
        a bridge tower resulting from a VBIED attack.
    --Initial concept development began in fiscal year 2015, but the 
            project was halted because planned fiscal year 2016 funding 
            was eliminated.
    As the central component for departmental research, S&T looks 
forward to a continuing beneficial and constructive working 
relationship with ERDC.

    Senator Cochran. And we appreciate very much your 
leadership in the research effort and we commend you and those 
who work with you for helping make sure we have what we need in 
order to make our nation safe and secure. Thank you.
    Secretary Kelly. Thank you, sir.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Lankford.
    Senator Lankford. Thank you.
    Secretary Kelly, good to see you again.
    Secretary Kelly. Sure.
    Senator Lankford. Glad that you are here. I would ask from 
our committee and from my family that you continue to express 
the condolences to Agent Morales, his family.
    Secretary Kelly. Sure.

                             CYBERSECURITY

    Senator Lankford. That is heartbreaking for all of us to be 
able to see that kind of news and it is difficult for your 
entire team.
    It has reminded me yet again though, this week as I have 
gone through just the hearings this week, how many times your 
department has been a lead player in a lot of the conversations 
in just conversations that I have had this week on the Hill, 
whether that be MS-13 gangs and the movement of those gangs 
from Central America across all of the United States and what 
is happening, fentanyl coming into the United States and your 
Customs and Border Patrol folks trying to interdict that in the 
mail as it comes from China, cyber issues as DHS is engaging 
with cyber protection for all of our U.S. Government systems, 
or whether that be immigration.
    You have people on the front lines of just about every 
major issue we are facing as a nation right now. So I thank you 
for the work that you are doing and for the encouragement that 
you can put on those men and women that are doing that.
    Let me ask you a whole series of questions. I am going to 
run through as many as I can, as we have time for. I mentioned 
the cyber issues and the cyber protection. DHS has a 
responsibility for U.S. Government systems and computers. Tell 
me what the conversation is right now in the planning for 
looking at supply chain, software, hardware, and the planning 
for keeping all of our government systems safe.
    Secretary Kelly. Senator, thanks for the condolence 
comment. It means a lot to the workforce and you are right. 
They are heroes.
    Relative to cyber, sir, you know, the threat is constant, 
as you know. I do not need to go into all of that. We need to 
up our game. You know, the ransomware attack that the world 
suffered a little over a week ago. What was really impressive 
to me, and you say that we play, you know, across the spectrum 
of threats. What was really impressive to me in all of the 
high-level meetings I was at, at the White House on this topic, 
as we watched that threat go across the world into Asia, 
millions of infected systems, how almost every part of every 
conversation ended with DHS is in the lead, DHS has got this? 
You know, whether it was National Security Agency (NSA), FBI. I 
mean, it was a lot of tremendous defensive organizations within 
our government.
    But on that particular point, the fact that millions, I 
believe, of systems were infected around the world and it 
barely got into the United States--a handful of individual 
computers. And that was a direct result of not just DHS, but to 
a large degree DHS and how that was detected initially, how we 
work with our partners, outside the U.S. Government as well as 
inside, pretty impressive.
    Senator Lankford. Right. And you----
    Secretary Kelly. As far as the U.S. Government goes, we 
have to up our game.
    Senator Lankford. We do.
    Secretary Kelly. We have a lot of--you know, there is an 
Executive Order (EO) out from the President holding everyone 
accountable. I would say this. Since I have been in this 
Administration, I have not heard more discussion on anything 
else than cyber, so people have got it, Senator.

                     BORDER SECURITY: WALL FUNDING

    Senator Lankford. We want to be able to work with you on 
that. The concern is that of the many things that you are 
doing--and it is quite a bit--to be able to protect the nation, 
that it is easy for that to get distracted because it is 
complex and expensive, quite frankly. But for someone who has 
the point on all of our systems across all of government, it is 
exceptionally important to us to be able to stay on that on our 
supply chain and how we are managing software and hardware on 
it.
    Give me the status of the funding that has already been 
given to your agency on the border wall. There is a request 
pending for a larger segment, but this part session there was a 
request made for repairs on existing wall, and that is 650 
miles of walls, new gates, and some other things that needed to 
be done. What is the status of that and that use of funds?
    Secretary Kelly. Well, on the repair of the fence, 650 
miles generally speaking, it is all fencing and it does work 
and it is exactly where it needs to be. That is why it works.
    Senator Lankford. Right.
    Secretary Kelly. It is effective. We want to repair that. I 
have been down along that part of the border a couple of times 
now. And the officers, again, rely on that fencing and there 
are places where we need to fix it. Some places have been 
washed away. In other places, it has been cut and repaired so 
many times that, you know, it is kind of failing. So we will 
spend the initial money that we received, you know, three weeks 
ago in doing that.
    As far as the request that is in this budget to start 
looking at putting in a limited number of miles, I think you 
were here for my comments about----
    Senator Lankford. I was.
    Secretary Kelly. We are looking--you know, we have a 
competition out there to decide what exactly we are looking 
for, wall, bollard fence, and everything in between.
    Senator Lankford. And that is fine. And the issue of the 
future construction things obviously is depending on good 
maintenance of what we are doing right now.
    Secretary Kelly. Correct.

          U.S. CUSTOMS AND BORDER PROTECTION OFFICERS: HIRING

    Senator Lankford. We have got to be able to maintain what 
we already, that 650 miles, and then continue to be able to 
expand out from there. So I think that was Congress' initial 
statement of while we are working on the details for the 
future, let's at least repair what we have and make sure that 
it is in good working order.
    Where are we in the conversations on the hiring process? 
This has been one of the great challenges for U.S. Customs and 
Border Protection. In particular, there were well over 400 days 
for hiring in the process. What is the conversation right now?
    Secretary Kelly. We have reduced the number, and it is 
astounding to me it would take 400.
    Senator Lankford. It is astounding to us. Yeah.
    Secretary Kelly. Unbelievable.
    Senator Lankford. Yeah.
    Secretary Kelly. I think we have got that down by two-
thirds now or we expect to have it down by two-thirds. Looking 
at some of the issues, we are not going to lower the quality of 
the officer that we--or the individual that we take in, whether 
it is ICE, Border Patrol, Secret Services, does not matter. And 
we will not skimp on their training. Consequently we will grow 
the force as fast as we can grow it, but not skimp on quality 
and training, but we have the hiring--and I would have to get 
back to you specifically--but I know it is down significantly 
than that absurd 400 days.
    [The information follows:]

    CBP continues to refine its hiring process to identify and hire 
qualified personnel in the shortest amount of time as possible. CBP's 
new frontline hiring process has led to significant reductions in the 
average time-to-hire--from 469 days in January 2016 to March 2017's 
average time-to-hire of fewer than 300 days. Many successful applicants 
are now able to move through the hiring process in approximately 160 
days. The fiscal year 2018 President's Budget includes an increase of 
$17.5 million to support efforts to continue and expand process 
improvements and add capacity to frontline hiring by focusing on 
efforts to attract qualified candidates and expedite their progress 
through the CBP hiring process.

                   REAL ID: NOTIFYING AFFECTED STATES

    Senator Lankford. Right. And we just passed out of a 
different committee on Homeland Security issue, trying to get 
permission for DHS to be able to hire individuals into those 
roles that already have background checks complete coming 
straight out of the U.S. military or out of law enforcement 
that are in good standing to have an expedited process, which 
we think is a very reasonable proposal on that.
    You and I have spoken before about the Real ID, which is 
clearly something you inherited from decades back to be able to 
watch and monitor. There are several states including mine that 
are waiting on information that is due to us before January 
6th. We have a temporary extension that expires at that point 
and everyone kind of leans forward as we are getting closer and 
closer to January 6th to try to see when that notification will 
come out.
    Do you have any idea when notifications will come out for 
those affected states?
    Secretary Kelly. Yes, sir. And there is only a small number 
of states now that are----
    Senator Lankford. Right. I happen to be one.
    Secretary Kelly. Yes, sir. I know. That are lagging behind. 
We are in contact, and in some cases I am personally in contact 
with the mayors, particularly in those states that are frankly 
likely not going to be able to pull it off. In a couple of 
cases now, I have offered to the governors rather to send out 
members of my team to help them evaluate where they are and 
where they need to go. So we have done that. Where a state can 
get to the point where they can accomplish the Real ID 
requirement, extensions would come.
    Senator Lankford. Our state is one of those states that 
there was a pending piece of legislation to be done.
    Secretary Kelly. Right.
    Senator Lankford. That piece of legislation was completed 
in February, but we still have not received our extension yet. 
So as far as we can tell, what we needed to be done has been 
done for several months, but we are still waiting on an answer 
and that time is coming very, very close.
    Secretary Kelly. I am on it.
    Senator Lankford. That would be terrific. Thank you.
    Thank you, Mr. Chairman.
    Senator Boozman. Thank you, Senator Lankford.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And Secretary General, let me just say that on behalf of 
myself and of many of my colleagues--I hear them talk--we are 
so proud that you have agreed to serve in this position. It 
makes us all feel a lot better, so we are very proud. And every 
one of your coworkers that work with you, not for you, but with 
you. And I understand that a good leader has people with him, 
not for him.
    Secretary Kelly. Right.

            ANTIDUMPING AND COUNTRERVAILING DUTY COLLECTION

    Senator Manchin. I appreciate all of that and the hard 
work.
    I want to go just a couple of questions on the guts of the 
organization. Your organization, CBP, is the second largest 
revenue collection agency next to the Internal Revenue Service 
and a lot of people do not understand that. But it troubles me 
because our retrospective duty collection system, we are the 
only country that does retrospectively. And what that means, we 
do not require importers to pay a calculated dumping duty at 
the time that the merchandise is imported into the United 
States. Instead, after importation the importer can request a 
review to determine the exact amount of duties to collect based 
on a level of dumping that occurred during a previous review 
period.
    In fact, we are the only major user of anti-dumping 
countervailing duty trade remedies that processes duty payments 
in this manner. Most countries collect duties at the time of 
import. Unfortunately, once the International Trade Commission 
and the Department of Commerce assesses the final duty and 
inform the importer they will now have to pay back those 
duties, many of those importers simply disappear without 
paying.
    So the lack of collection because of our inadequate system, 
we do not know how much money we are losing. And I do not know 
if that has been brought to your attention----
    Secretary Kelly. It has not.
    Senator Manchin. At this level, but I would sure hope that 
you would look into this, sir, because we think there is an 
awful lot of revenue left on the table, a lot of revenue.
    Secretary Kelly. Senator, I appreciate you bringing it up. 
I will look into it right away.
    Senator Manchin. We found out there is currently $2.6 
billion in uncollected anti-dumping duties, $2.6 billion. Now, 
you know, we all kind of look at that fund and we all use it 
from time to time, which I know it does not make your agencies 
real happy, but we like to make sure you have enough to do your 
job too. I just wanted to bring that to your attention, sir. It 
is so serious.
    Secretary Kelly. I appreciate it. Yeah.
    Senator Manchin. And we would be happy to tell you what we 
have found for your people here and work with you very closely.
    Secretary Kelly. Absolutely, Senator.

                  BORDER SECURITY WORKING WITH MEXICO

    Senator Manchin. Okay. Border security, I know everybody is 
talking about the wall. I would like to know your assessment 
and your evaluation because of your former position. If Mexico 
was able to build a southern wall on their southern border, the 
threat of all the gangs that come up through, of all the 
dumping that we get, all the drug trade and all the other 
trade. If we were able to stop and Mexico was able to build 
their wall and have tighter border controls on the southern 
border would that be effective? How helpful would that be?
    Secretary Kelly. Senator, it would be effective. And I have 
to really give a shout out to Mexico. I cannot emphasize enough 
the relationship that my department has generally and I have 
personally with the military and upper echelon ministers within 
the Government of Mexico, to include some time with the 
President of Mexico. I cannot give enough credit to the men and 
women whom we work with and how hard they work.
    So on the southern border when I was at Southern Command 
working with their military under the radar quietly for a lot 
of different reasons, we helped them take a look-see at their 
southern border, which of course is very narrow--a couple 
hundred miles across.
    Senator Manchin. It would be very easy for them and that 
would fulfill some promises made here.
    Secretary Kelly. They have established actually what they 
call the Southern Border Strategy. And last year they stopped 
160,000 migrants and turned them back humanely, processed them 
and turned them back. They have much different immigration laws 
than we do.
    Senator Manchin. They might be more receptive to building a 
wall there.
    Secretary Kelly. Right. I think now they are looking even 
harder into a southern border.
    The other thing we have done, Senator, is working with the 
governments, particularly the northern tier countries, 
Guatemala, Salvador, and Honduras, with whom I have a great 
relationship, encouraging people not to come. And because of 
what Mexico is doing, illegal crossings right now are down 70 
percent than what they were 120 days ago. That----
    Senator Manchin. Right. Well, Mexico is the key to this 
thing right now. They really do their job and want to do it 
well. They have a smaller border. They can control them a lot 
better.
    Secretary Kelly. Drugs are a different story.
    Senator Manchin. Well, drugs, yeah.
    Secretary Kelly. I mean, the amount of drugs, the amount of 
drug money that is generated because of our demand in the 
United States is virtually unlimited, unlimited to the degree 
that there is so much money available to either pay off 
officials in every country, to include our own, to pay off 
officials or simply have them murdered or have their daughters 
murdered or their kids murdered.
    Senator Manchin. Sure.
    Secretary Kelly. It is amazing. So there is a corruption 
problem throughout or an intimidation problem. Again, it is 
directly due to our drug consumption in this country. We need 
to get our arms around that if for no other reason than to help 
our southern neighbors.
    Senator Manchin. My belief is if we shut that southern 
border down in Mexico that between the United States and the 
Mexican government we could have a better chance of 
controlling----
    Secretary Kelly. Much better.
    Senator Manchin. The drugs that come out of Mexico by 
itself.
    Secretary Kelly. But demand, sir, is hugely important.
    Senator Manchin. I know. Well, that is a shame.
    I think where Senator Lankford was going and what I want to 
talk to you about, we had an open session of the Intel 
Committee, so everything I am talking about is open source.
    Secretary Kelly. Right.

                 CYBERSECURITY: KASPERSKY LABS SOFTWARE

    Senator Manchin. And I asked the question during our 
worldwide threats evaluation. We had FBI, NSA, DNI, and CIA, 
had all of our major--your major coworkers, colleagues. And we 
asked the question about Kaspersky Labs. And it is an open 
source. Do you know if you have Kaspersky Labs software in your 
system?
    Secretary Kelly. I believe we do.
    Senator Manchin. And do you know if--I would like to get a 
report on this from you all.
    Secretary Kelly. Will do.
    [The information follows:]

    The Department of Homeland Security (DHS) and its affiliated 
subcomponents did not identify the use or presence of Kaspersky-branded 
products on its Federal information systems from May 2017 to present. 
This includes DHS Federal information systems used or operated by a 
contractor of DHS or by another organization on behalf of DHS.
    Furthermore, the Acting Secretary of Homeland Security issued 
Binding Operational Directive (BOD) 17-01: Removal of Kaspersky-Branded 
Products, on September 13, 2017. BOD 17-01 instructed Federal agencies 
to identify and report to the Department of Homeland Security (DHS) by 
October 13, 2017, the use or presence of Kaspersky Lab-branded products 
on Federal information systems. This process has identified the use of 
Kaspersky Lab-branded products on some systems at some other agencies. 
DHS has been working with those agencies as they develop and implement 
plans to remove such products as required by the BOD.

    Senator Manchin. General, we have great concerns about. I 
think you have--as you know, it has been noted. And also if you 
would even go one step further. With Kaspersky, could you find 
out if any of your contractors that you rely on is using 
Kaspersky's software?
    Secretary Kelly. Absolutely.
    [The information follows:]

    Binding Operational Directive 17-01 defines ``Federal information 
system'' as an information system used or operated by an agency or by a 
contractor of an agency or by another organization on behalf of an 
agency.'' This definition is drawn from Office of Management and Budget 
Circular No. A-130. Each department and agency is responsible for 
determining whether a given information system, including an 
information system used or operated by a contractor, meets this 
definition.
    Binding Operational Directive 17-01 requires that departments and 
agencies identify any use or presence of Kaspersky products on all 
``Federal information systems'' within 30 days. As agencies conducted 
this assessment, DHS has advised agencies that contracting officers and 
contracting officer representatives should work together to provide 
direction to their contractors, as appropriate.

              JOINT INTERAGENCY TRAINING EDUCATION CENTER

    Senator Manchin. Okay. With that being said, I have one 
other one. The JITEC, which is a Joint Interagency Training 
Education Center in West Virginia, I think you know about Camp 
Dawson. You know what we do there. You have been there in your 
former command. It is a tremendous chance for us to be able to 
train tragic events in Manchester. Homeland Security, National 
Guard training is something we rely on. As a former governor, 
that is our first line of defense, as you know.
    And we would hope that you all would look at Homeland 
Security for that type of facility and training, it is already 
there. It is cost effective. It would be very inexpensive. It 
is very close to the Capitol, as you know, the nation's capital 
here. So we want you to know that we are able, ready, and 
willing to help in any way possible.
    Secretary Kelly. We will take a look at it, Senator.
    Senator Manchin. Thank you. Thank you.
    Secretary Kelly. Yes, sir.
    Senator Manchin. Thank you, Mr. Chairman.
    Senator Boozman. Thank you, Senator Manchin.
    Senator Kennedy.

                            SANCTUARY CITIES

    Senator Kennedy. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being with us. Thanks for your 
service, both before--or currently and before you became the 
Secretary.
    I want to talk to you for a second about sanctuary cities, 
if I could. Every country that I am aware of has immigration 
laws and respects its border. We spend billions of dollars a 
year of taxpayer money trying to respect our borders. We are a 
nation of immigrants, but we are also a nation of laws. But if 
you get across our border illegally and make it to certain 
cities in America you can relax a little bit because the mayors 
do not want to enforce Federal law.
    And I know many of them have good lawyers and they can 
explain why what they are doing is not a violation of the law 
in their opinion, but it is an attitude as much as anything 
else. We have that issue in Louisiana with New Orleans as you 
know. And our mayor has said publicly several times--he is a 
friend of mine--but that I refuse--I am quoting now. ``I refuse 
to be a part of Trump's deportation force.'' And this is 
America. You can believe what you want, but you cannot choose 
which Federal laws you want to comply with.
    What are we doing about the sanctuary city issue?
    Secretary Kelly. Well, sir, pretty contentious, to say the 
least. I would start off by saying that in the 120 days or so I 
have been in the job, I have met--every time I travel, Boston, 
now New York, Chicago, San Diego, every time I travel, I will 
always meet with the mayor of the big city and the senior 
police officials. And that includes when I go to smaller cities 
as well. I have also interacted with organizations here in 
Washington. You know, the National Sheriffs' Association, 
hundreds of sheriffs come in, big city police chief 
association.
    They all, to a man and a woman, want to cooperate with the 
Federal Government in terms of removing criminals from their 
municipalities. The best way to do this is for us to have 
access to their jails and prisons so that, when an individual 
who is an illegal immigrant is ready to be released we simply 
take them off their hands.
    It is inconceivable to me why any public official would not 
want to do this. We, for free, take them off their hands and 
send them away. Yet the sanctuary cities are not doing that 
with us. And the police officials to a man and to a woman are--
you know, they do not want to----
    Senator Kennedy. Is New Orleans cooperating with you?
    Secretary Kelly. Yes. In a way that they have managed to 
work out a relationship with Homeland Security. So it is still 
going on.
    Senator Kennedy. I do not understand what that means, Mr. 
Secretary.
    Secretary Kelly. Well, they will call us and give us a 
notification when someone is about to be released, and we will 
send a team there. Sometimes there is a limit to how long they 
can hold people, but yes, we are working with them.
    What is not happening in places like that is when it is not 
happening. When we do not have access to jails and things like 
that, we have to go into the communities to focus our attention 
on illegal aliens, which is dangerous for my officers and just 
as dangerous for the local communities. The best way to do this 
is in the jails, and sanctuary cities tend not to allow us to 
set up shop, if you will, in the jail. We pay for it, or if 
they do not want to let us into the jail permanently, we will 
train, at our expense, their officers so that when someone 
comes in, they can do the paperwork and call us and we will 
come pick them up.
    I do not understand why these so-called sanctuary cities 
want to do it. In many cases, Senator, the mayors are playing 
to their, you know, citizenry about it, but actually they are 
not doing anything. In fact, more often than not, I will talk 
to mayors and say, ``Look, this is what I want to continue 
doing with you. Are you good with that?'' And if it is 
acceptable, they will say, ``Sure,'' and that is a good 
relationship. But then they will, you know, still talk about 
the sanctuary cities thing.
    Frankly, I do not really know what it means. I do not think 
anyone out there knows what it means, but in my case, I do not 
want to cut the tremendous relationship my department has with 
law enforcement, so we will do it quietly or we will do it 
publicly, any way they want. But it is insane to me why any 
public official would not want to cooperate with us to take 
dangerous criminals off the streets and out of their 
municipalities.

                               JONES ACT

    Senator Kennedy. I want to ask you about, Mr. Secretary, 
the Jones Act, which I know you are familiar with. It is pretty 
simple. It is a statute passed by Congress. It says that if you 
are a ship or owner of a ship and you want to move goods from 
point A to point B in America that ship has got to be built in 
the United States. It has got to be U.S. flagged. It has got to 
be U.S. crewed.
    And the way I read the statute and the caselaw is there is 
no discretion. I mean, that is the test and the ship either 
passes the test or it does not. I would like to get your 
thoughts about the Jones Act.
    Secretary Kelly. Probably the first thing I was briefed on 
was the Jones Act when I took this job, so call that 3 months 
ago. And the way it was briefed to me, in short, was the issue 
of supporting the oil and gas industry and whether it was U.S. 
flagged, not U.S. flagged. The way it was briefed to me, 
Senator, by lawyers, it is not clear. You know, we are working 
on this. It is not clear exactly what the law says. I think it 
is a 1920 law. And so the way I was briefed was we could either 
use foreign flag or any flag or just American flag or we 
really--and option three, and it was not a kick this thing down 
the road option. They said, ``Sir, what we really want to do is 
study this thing and come up with a comprehensive solution.'' 
And my only question is and always is, okay, what is good for 
America?
    Senator Kennedy. Yeah.
    Secretary Kelly. I do not care about--frankly, I do not 
care about the industry at all. What is good for America? They 
said, ``Well, we don't know what is good for America. Let us 
study this.'' So this came up in my hearing on the House side 
yesterday. I went back. It was briefed to me that it was 
clearer than what apparently it is. So I went back to my folks 
yesterday afternoon and said, ``Get me some definitive 
understanding of this.'' Go back to the drawing boards. If we 
are in violation of the law, obviously we will change that, but 
in the meantime, we do want to study this and come out with the 
right answer for America.
    So I guess in short, I am on it, Senator. I appreciate you 
raising it.
    Senator Kennedy. And I do, Mr. Secretary, appreciate your 
careful approach. Just don't let your folks study it forever.
    Secretary Kelly. Right. No, I got it. Yes, sir.
    Senator Kennedy. Thank you, Mr. Chairman.
    Senator Boozman. Thank you, Senator Kennedy.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you, 
Secretary for your service.
    And let me begin by expressing my condolences to everyone 
at the Department, particularly at CBP, for the agent who was 
killed. It is a reminder that protecting our borders, like our 
other law enforcement positions in this countries, is a 
dangerous jobs.

                             OPIOD EPIDEMIC

    Secretary Kelly. Thank you, ma'am.
    Senator Shaheen. You know, I know like the rest of America 
and the world really we have watched with horror at the events 
that happened in Manchester, England earlier this week. And as 
someone said yesterday in a hearing, is raises terrorism to a 
new level when they deliberately target young people. Given 
those events, given what we know terrorist groups have said 
about taking the fight from the caliphate in the Middle East 
out to the rest of the world, I am very concerned about what I 
see in this budget that would dramatically cut preparedness 
grants for states and local communities.
    I was governor on 9/11. I can tell you that the support 
that we got from the Federal Government to help us be better 
prepared to fight terrorist attacks was absolutely significant 
and we could not have replaced that in any other way. I was 
also very disappointed to see that what appears to be a zeroing 
out of the countering violent extremism section of your budget. 
I know that that was just getting started and I had heard some 
reports that it was becoming more effective as it tried to 
address what is happening in terms of radicalization of 
Americans, some young Americans.
    So I just want to express my concerns about both of those 
items in the budget because I do think that is a significant 
challenge for us as we try and address potential terrorist 
attacks and other terrorist threats in the United States.
    I do want to ask you about the heroin and opioid epidemic 
that we are experiencing. In New Hampshire, we have the second 
highest overdose rate death rate in the country. We are ground 
zero when it comes to this epidemic. And while I know there are 
a lot of aspects of it and we are working very hard on 
treatment, recovery, prevention, interdiction, this is an area 
where CBP has been very important and I wonder if you could 
talk a little bit about what CBP and the Coast Guard are doing 
to help us address the epidemic that we are experiencing 
throughout the country.
    Secretary Kelly. I would start by saying that--and I am 
putting some energy behind this even though it is not my job--
about the issue of demand reduction. So let me start with that. 
We have a very, very casual approach to drugs in the United 
States--legal and illegal. You know, we are the most overly 
medicated society on the planet.
    Senator Shaheen. Absolutely.
    Secretary Kelly. You know, when I was a kid and had my 
wisdom teeth out, they suggested I take aspirin if it hurts. 
Now you will go home with oxycontin. A lot of reasons for that, 
but we are so overly medicated and that is part of the opiate 
problem today.
    Senator Shaheen. Right.
    Secretary Kelly. But we have never had a drug demand 
reduction comprehensive program where the President leads it 
and the Congress is behind it and National Football League is 
behind it and sports figures and Hollywood like we have, say, 
tobacco reduction, like we have for drunk driving and that kind 
of thing. So it is really all about demand reduction, first 
issue.
    Second, of course, those who do get addicted, we need to 
help them in terms of, and you know, rehabilitation and 
whatever. The rehabilitation industry will tell you the best 
way to get totally clean from drugs is never to start. So that 
is one aspect of it.
    The specific question, if we are trying to keep drugs out 
of our country on the southwest border, we have already lost. I 
mentioned before--I do not think you were here--that Coast 
Guard cutter that just completed its run down on the Western 
Pacific took off 18 tons of cocaine. That is the place to get 
it. My view of the southwest border begins--in terms of 
security--begins 1,500 miles south, begins, first of all, with 
the relationships we have with all of those countries with the 
exception of maybe Venezuela, less so--not a bad relationship 
with Nicaragua. But the partnerships down there to stop illegal 
migration, as an example, and movement of people for whatever 
purposes into our country.
    There have been amazing efforts that countries like 
Colombia put behind reducing the production of cocaine, in its 
case, and Peru is right along with them. Right up the isthmus, 
the relationship we have with countries that we are working 
with. And I have ICE people, HSI, Homeland Security 
Investigation people, as well as CBP in almost every capital in 
the world. So we are working it well south of the Texas-Mexican 
border.
    All of the heroin--all--90 plus percent of it that we 
consume comes from Mexico. It is grown there, primarily in 
Mexico. The Mexican Government is after it, but they are 
overwhelmed by the problem. We are working with them on it. We 
can identify the fields and tell them where to go, and they are 
very, very cooperative. So my point is that the real issue is 
to get at this problem where it is produced. The number one 
issue is the demand. Get to it where it is produced.
    Again, on the high seas the Coast Guard will pick up no 
less than a ton at a time. The Colombians got 450 tons last 
year before it ever left Colombia. Once it gets to the 
southwest border at one of our ports of entry, we are lucky to 
get 10 kilos. So a ton at a time. By the time it gets to the 
southwest border, we might get it, you know, kind of 10 kilos 
at the time. But they are doing their own work. They are doing 
tremendous things.
    We are looking at ways to search, as an example, more 
vehicles coming through the border. That is a balance though 
because the more vehicles you search, the longer the lines. It 
is a very comprehensive problem as far as DHS is concerned. We 
are hitting it pretty hard with relationships, with 
interdiction well south of the border, beefing up security at 
the ports of entry, which is where most of these hard drugs 
come through, and then of course internal enforcement by our 
law enforcement, state and local law enforcement. It is all a 
big comprehensive thing and no one person--there is no one 
solution to it, but I will go back to the demand.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Boozman. Thank you, Senator.
    Senator Hoeven, our former fearless leader as chair of the 
subcommittee, you are recognized.

                   BORDER SECURITY: WALL CONSTRUCTION

    Senator Hoeven. Thank you, Mr. Chairman. And, Mr. 
Secretary, thanks for being here and for all the work you are 
doing.
    In the budget, there is $1.6 billion for 32 miles of wall 
construction along the southern border. I am wondering why 32 
miles. How did you end up?
    Secretary Kelly. It is a start. As we go through the 
process right now, Senator, of deciding what that physical 
barrier will look like: wall, bollard fencing, whatever. And 
there is a competition, so I don't really know how much a mile 
of the barrier will cost. I mean, the bollard fencing, as I 
understand it, how many much disadvantages. There are 
advantages, too, in certain places down along the border to put 
a wall in. But for the money that we--it is a start, and I am 
not being funny.
    And as we talk to the professionals down there on the 
border and ask the CBP folks, ``You know, if I could give you 
wall, how much would you need and where would you want it?'' 
And the answers we will get back is, ``You know, if you could 
give me 12 miles here, 13 miles there.'' There are places they 
will tell you, ``We do not really need a wall here, sir. There 
is not much movement in terms of people. But it is as much as 
we could afford coming out of the gates.

                BORDER SECURITY: UNMANNED AERIAL SYSTEMS

    Senator Hoeven. Well, I think you have described the wall 
concept very well where you talk about physical barrier, 
technology, and people. All of that is really necessary to have 
security, which is what we are after in terms of a wall.
    Talk a little bit, if you would, about use of unmanned aero 
systems on both the southern and the norther border. And as you 
know, I have asked and you have agreed to come up to Grand 
Forks where we have the Center of Excellence established there 
and one of the test sites for UAS. And, in fact, CBP is 
covering 900 miles of the northern border, all the way from the 
western--from Lake Superior all the way through most of 
Montana.
    So just talk about your plans in terms of utilizing UAS.
    Secretary Kelly. I think the advantages, of course, of 
those type of aircraft is they are relatively inexpensive, and 
they fly for a long time. If you put the right sensor suite on 
them you can see during the day, at night, and they don't get 
tired essentially. And they are quiet lookers. One of the 
problems we have if we use things like helicopters--helicopters 
are great for a lot of things, but from a surveillance point of 
view, they make a lot of noise and they can be seen and all.
    I would like to think--I am looking hard at expanding the 
use of Unmanned Aerial Vehicles (UAVs), but again, that is some 
time off. But expanding use of UAVs, I think they are used--
particularly on parts of the border, whether it is southern 
border or northern border, particularly where there is just no 
one there. There is very little movement where it is an economy 
enforced mission, right? You put your people and your assets 
where most of the movement is, but you do not ignore parts of 
the border, in this case. And it is a great place to use UAVs 
and other types of sensors.
    Senator Hoeven. If you have success in border security, you 
create pressure in other areas. And that is where the UAS can 
help you so much to cover areas where you do not have as much 
infrastructure or people or it is remote or difficult and it is 
a day and night solution with infrared.
    Secretary Kelly. Right. Yeah.
    Senator Hoeven. And it also leverages your personnel 
resource incredibly.
    Secretary Kelly. Yeah.

                          UNACCOMPANIED MINORS

    Senator Hoeven. Yeah. We have a large conference in the 
fall which might be a great time for you to come up because we 
bring in into Grand Forks all things UAS. I mean, it cuts 
across military, civilian, border security, all applications. 
We have people from all over the country and other countries 
there, but it is a fall conference. It would be a great time 
for you to come.
    We had a hearing yesterday in Homeland Security on MS-13. 
And one of the things that came up from some of the law 
enforcement personnel that we had there testifying is they 
would like to have some way to know when unaccompanied alien 
children are coming in. There needs to be some way for law 
enforcement to know where those individuals are going in the 
country because, you know, the average age in MS-13 is about 18 
years old. And they are recruiting them at 14 and maybe even 
younger in some cases. And so if they come into the community 
and they do not have some kind of support network for those 
individuals, they are very vulnerable to be coerced or to join 
the gang or be coerced into joining the gang.
    So is there something you are doing, can do to coordinate 
with law enforcement on this issue to try to get at this gang 
issue--gang violence problem?
    Secretary Kelly. It is the first time I have heard of this 
issue and so I will specifically take it on. But on the UA, on 
the unaccompanied minors, I think the Senator knows this, that 
when they come into our possession, CBP as an example down on 
the border, if they are young, below--if they are not adults, 
then we have to turn them over to Department of Health and 
Human Services (HHS) I think within 72 hours. Usually it is 
done faster than that.
    Senator Hoeven. Right.
    Secretary Kelly. And, by the way, this is a huge scam. I 
mean, they know exactly--most of them know exactly what they 
are doing. They come across. They identify themselves. The 
people who traffic them up there, their families are actually 
involved in human trafficking at this point. We will send them 
up. We turn them over to HHS. They usually have in their pocket 
the name, phone number, address of their mom or their uncle or 
someone who is already here. And then HHS will do some initial 
vetting of the family, but if it is a mom or a relative or 
something, they will be, at our expense, turned over to them, 
whether it is Fairfax or North Dakota, whatever.
    And most of them do not get involved in crime, but many of 
them do. Most do not. Some do. And they are perfect for 
recruiting into the MS-13 type gangs. And that is not the only 
one, but that is the obvious one. So if we do not alert law 
enforcement, we certainly can and we will. It is a great point.
    Senator Hoeven. Well, as you say, they are turned over to 
HHS and then there is some checking they do, but these were 
detectives, police chiefs, police commissioners that we were 
talking to and they were saying HHS has notification. They talk 
to social services on most things, but law enforcement is not 
getting notified.
    Secretary Kelly. Right.
    Senator Hoeven. That is the piece that they were asking 
for.
    Secretary Kelly. Yeah. I will take that on, Senator. I do 
not know. It is an HHS thing, but I can put my hands on it.
    Senator Hoeven. And I understand you might have to 
coordinate with HHS. Maybe you work with them. But they are 
saying given the growing numbers with these gangs, and this is 
part of the recruitment process, and they were looking for some 
help there.
    Secretary Kelly. The good news is, if I could, in the last 
120 days, the number of illegal immigrants or migrants that are 
coming across the border is down by 70 percent, but the real 
good number here is that the number of families coming in, 
unaccompanied minors, is down to tiny levels. So we have almost 
stemmed the tide, but we do, frankly, have an awful big problem 
with these folks.
    Senator Hoeven. Well, and it relates to your immigration 
courts and that whole process too and tracking people versus 
just releasing them into the society. They may have a name. 
That individual actually may not even be willing to take care 
of them.
    Secretary Kelly. Right.
    Senator Hoeven. I know all of these things are going on and 
you are trying to get your arms around all of them. This was 
one where local law enforcement they can----
    Secretary Kelly. Yeah. We can do that.

       MANCHESTER, ENGLAND TERORIST ATTACK: U.S. INFORMATION LEAK

    Senator Hoeven. Be more effective in working with you.
    And the final question quickly is in the terrible, terrible 
terrorist attack in Manchester, the local law enforcement there 
has indicated that there has been some information leaked by 
U.S. authorities. Can you comment on that at all?
    Secretary Kelly. I cannot.
    Senator Hoeven. Okay. I understand in this open setting.
    Secretary Kelly. Sure.
    Senator Hoeven. Thank you.
    Secretary Kelly. Thank you, Senator.
    Senator Boozman. Thank you, Senator Hoeven.
    Senator Baldwin.

                   BUDGET CUTS AND IMPACT ON SECURITY

    Senator Baldwin. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. Thank you for your service.
    I would like to ask some questions about how the budget 
prioritizes funding for security related activities across the 
very diverse DHS mission set. Of course, your attention--one's 
attention is naturally drawn to places where there is 
significant increases versus places where there is significant 
decreases. The nearly $3 billion increase for DHS overall 
includes $1.6 billion for a border wall--I would note something 
that Congress and its omnibus considerations rejected just a 
few weeks ago. And certainly hundreds of millions of dollars 
more for ICE, including 850 new officers and 66 percent 
expansion of the number of immigration detention beds.
    And I share your commitment to securing the border, but I 
question whether these significant increases are the most 
effective way to allocate limited resources to combat the 
threats that we face.
    For example, President Trump's budget reduces TSA's funding 
by approximately $200 million compared to the omnibus, 
including cutting something that has gotten a lot of attention, 
the 23 Visible Intermodal Prevention and Response Teams, or 
VIPER teams. These teams, in my mind, are critical to the 
safety of our airports and our transportation systems.
    The President's budget also cuts critical support to our 
states' local law enforcement, including cutting $118 million 
from the State Homeland Security Grant Program--I think my 
colleague raised that earlier and $156 million from the Urban 
Area Security Initiative. And so given the continued threat, I 
have to wonder why is the President cutting funding that keeps 
our community safe from terrorist attack when there is an 
overall increase in the departmental budget.
    So my question to you, Secretary Kelly, with the nearly $3 
billion increase that you are working with, why did DHS cut 
these particular programs and what do you assess the impact to 
be on America's security? How much risk are we taking with 
these cuts, the ones that I singled out?
    Secretary Kelly. Right. I have been taking a look since I 
have been the Secretary and have been briefed on, you know, all 
of the grant programs, taking a long hard look at their 
effectiveness. There are many that clearly are effective. There 
are others that are questionable. So, anyway, we are looking at 
all the grant programs across Homeland Security.
    In terms of some of the grants that you mentioned, in many 
cases from a terrorism point of view, it was clear on 9/11 that 
we were shocked into an understanding that we did not take--we 
thought that terrorism was over there and we learned on 9/11 
tragically that it can come here very easily. And it was clear, 
as I understand it--of course I was not here at the time--but 
the people who have been in Homeland Security long enough or 
way back then have informed me that many of these grants were 
poured into state and local communities to give them an 
opportunity to buy equipment that they did not even think they 
needed before or to form special units that they did not ever 
think they needed before or to get specialized training that 
they never thought they needed before because of the terrorist 
threat. That was 14, 15 years ago.
    I would very proudly say that the police departments, state 
and local, in our country today, it is in their DNA to think 
about this topic, unfortunately. And every time there is an 
Orlando or every time there is a San Bernardino or Chattanooga, 
I mean, it is obvious to them.
    The idea is that they are up and running now. And the sense 
is, in terms of the Department and certainly in the 
Administration, that those monies now are not needed as much. I 
mean, they are certainly nice to have and I would certainly 
take money if someone had offered it to me. Where we were 
looking to save money, this was an area in which the sense was 
that these 15, 14 years on, these municipalities now are, I 
would argue, second to none in the world in dealing with 
whether it is homegrown terrorism, active shooter, for whatever 
reason, or terrorists coming in from outside. So that is one 
part of the answer at least.
    Senator Baldwin. Okay.
    Secretary Kelly. There are things--frankly, I will go back 
to the grant thing. I have told my people I want you to look at 
every grant and then come and brief me. Is it working? Then we 
will keep it if we can afford it. If it is not working or it is 
not working so well, tell me how to adjust it and make it 
better or we are going to stop it because we do not want to 
waste the money.

                     URBAN AREA SECURITY INITIATIVE

    Senator Baldwin. Let me sort of follow on this topic. 
Sticking with the Urban Area Security Initiative, I believe 
that the program and its risk formula is due for an update. And 
regardless of the cut in funding which I would like to see 
restored, but I understand and support the need to allocate 
resources in proportion to risk. But I represent Wisconsin. We 
have the City of Milwaukee, the biggest city in the state. And 
it has been excluded from eligibility to receive Urban Area 
Security Initiative funding since 2011 despite the well-
supported need for Federal terrorism prevention funding to 
close a gap that simply cannot be closed or filled by the State 
Homeland Security Grant Program.
    And you listed some of the things that we are vulnerable to 
in communities across the country. I think of the tragic 2012 
shooting at a Sikh temple in Oak Creek right outside the City 
of Milwaukee in which six people were killed and four wounded. 
Last year the FBI thwarted a terrorist plot in Milwaukee. A man 
had planned a mass shooting of at least 30 people at a Masonic 
temple in the City of Milwaukee. The local fusion center helped 
prevent that attack, and yet it is not eligible for Urban Area 
Security Initiative funding and needs more assistance.
    And finally, like many communities across the country, 
Milwaukee's Jewish Community Center, its JCC, received multiple 
bomb threats in recent months, again, but was not eligible for 
the Urban Area Security Initiative's Non-Profit Program.
    So, Secretary Kelly, in light of repeated calls by terror 
organizations for their adherents to attack more vulnerable 
targets in large and small communities alike, I wonder if you 
agree that it makes sense to increase the Department's 
flexibility and allow funding to follow the threat and 
regardless of location.
    Secretary Kelly. As you pointed out, Senator, you are 
exactly right. This terrorist threat, particularly the 
homegrown, is not limited to New York City or Las Vegas or 
Chicago. In fact, every community, small village, town in 
America is vulnerable. Every city is vulnerable.
    There is a formula, as I think the Senator knows, that my 
organization works with state and local and the formula is 
risk-based or to establish the risk. And I am not entirely 
familiar with the formula, but I can tell it has worked every 
year down to really, you know, to the most specific threats. 
And if any city does not receive money, it is simply because 
that formula is working; the threat is not considered to be 
high enough.
    Now, I say that. I am not so sure at this point with the 
exception of the most obvious targets--Washington D.C. and, you 
know, say New York. I am not so sure that--I mean, there is 
just not enough money. Every city, every village in America 
deserves money if you look at it from the point of view of 
could terrorism happen there. It is everywhere and that is the 
nature of this threat that we are dealing with. So there is not 
enough money in the till because we would need an unlimited 
amount of money.
    So the Homeland Security, FEMA, and others work this very, 
very closely with state and local. They have the formula. They 
plug in the numbers. They do the threat assessments. And they 
come up with about--I think it is about 33 cities, 
municipalities that receive money. I think we added two cities 
to that this year, but in order to do that we had to take money 
away from other municipalities on that list, to give them 
money. Once we have released, there will be kind of hell to pay 
I am sure from those people that lost money.
    But this terrorist threat is so insidious and so 
decentralized. I worry about the homegrown threat all the time. 
I believe the Department of Defense and the Coalition are doing 
very good overseas reducing this threat, but the end results of 
reducing that threat is that the terrorists who are fighting in 
the caliphate, you know, Syria and Iraq, they are going home. 
They are not going home to live normal lives. In fact, they are 
being encouraged not to be killed in the caliphate fight. Go 
back to where you came from and just create Manchester type 
fights.
    If you were in Europe, I think they will--their 
approximation--I will use their approximation. There are about 
2,500 of their citizens now fighting in the caliphate. These 
are kids mostly, men and women, that were born and raised in 
France, Germany. They have legal passports. They have left to 
go fight in the caliphate. In many cases, their countries do 
not know they have left and then they come back, so their 
countries do not know they were ever gone. And now they are 
hardened warriors who will do things like Manchester.
    So as horrible as Manchester was, my expectation is we are 
going to see a lot more of that kind of attack. We saw an 
Indonesia attack yesterday, suicide bombers. So the good news 
was when they decided to hold terrain, that is the caliphate 
and Iraq and Syria, they were holding it so now we know where 
exactly to go and kill them. Now they are leaving North Africa. 
It is a growing problem.
    But back to your point, every municipality is at risk and 
we just do the best that we can to determine the ones that are 
kind of the most at risk. And we use that formula. It is fair. 
Everyone has a chance for input. There is not an unlimited 
amount of money.
    Senator Boozman. Thank you, Senator Baldwin.
    Senator Murkowski.

                               H-2B VISAS

    Senator Murkowski. Thank you, Mr. Chairman. And, Secretary, 
thank you for being here, your commitment to service.
    I want to ask about two issues today. First is H-2B visas 
and then I want to talk about the Arctic a little bit and the 
resources that we have up there and then also the northern 
border. I understand you have been talking a lot about the 
southern border, but I would like to talk about the northern.
    H-2B visas, the seafood industry in my state is one of the 
strongest parts of our economy. Over 78,000 jobs, $5.8 billion 
estimated in revenue annually, whether it is our crab, our 
pollock, our Bristol Bay salmon, we have the largest fisheries 
and the healthiest fisheries in the world. But the problem that 
we have is the adequacy of seasonal labor. We just cannot get 
the men and women out to these very, very, very remote 
communities to meet the demand of the workforce. We cannot get 
them in the state. We cannot get them in the United States. And 
so we have traditionally relied on the opportunities for H-2B 
visas.
    On May 5th the President signed the Appropriations Omnibus 
that gave authority to you in consultation with the Secretary 
of Labor to approve additional H-2B visa processing for the 
remainder of the fiscal year to help many of these businesses, 
these industries that have been unable to find sufficient 
employees for this upcoming season. Our problem in Alaska is 
the timing here because the harvest is later in the year, so 
other industries around the country basically gobble up that 
quota and we are left hanging.
    The short-term fix is, in my view, urgently needed for the 
large employers that are seeking the necessary staff as we 
prepare for this early summer salmon harvest. We are just few 
weeks out here. And so our seafood processors are really 
operating in real-time facing workforce decisions that will 
have significant economic impact. For most of these 
communities, for most of these regions, if there is no one to 
process the seafood when it comes in, there is no place for the 
boats to deliver. If the boats cannot deliver, there is no 
economy to that community at all. There is no other source of 
economy.
    So this is very serious for us as we look to address this 
seasonal worker shortfall so that we can process our seafood 
within these remote communities. I think we recognize that last 
minute action is not ideal, but after we resolve these issues, 
I am committed to working with you to find a longer term 
solution so that we do not need to revisit this problem year 
after year. But I need immediate help to reopen U.S. Customs 
and Immigrations Services, their premium processing centers for 
petition acceptance of new H-2Bs so that we can get these 
seafood processing employers in the state.
    So the question for you is whether or not you do plan to 
approve additional H-2B visa processing for this year so that 
this very important economic opportunity for us in Alaska with 
our seafood processors can go to work.
    Secretary Kelly. Well, this is one of those things I really 
wish I didn't have any discretion, and for every Senator or 
Congressman that has your view, I have another one that says, 
``Don't you dare. This is about American jobs.'' You know the 
argument, both sides.
    My staff, members of my staff, are coordinating with the 
Department of Labor on this. One of the things--and I have my 
working class route background that keeps reminding me that 
some of these individuals--not necessarily Alaska, but many of 
these individuals are victimized when they come up here in 
terms of what they are paid and all of the rest of it. So we 
are working with, the Department of Labor to come up with an 
answer to this, but we really do need a long-term solution.
    So we will work with the Senate, with the Congress, and 
with industry this year and, again, I will have my staff when 
they return from Labor and we get some protocols in place, we 
will likely increase the numbers for this year. Perhaps not by 
the entire number that I am authorized, but we really do need 
and I really look forward with you, ma'am, Senator, and the 
whole Congress to get a longer-term solution to this.
    Senator Murkowski. Well, we need one. I have had this same 
discussion with Secretary Acosta and recognize the imperative 
of this. And I am with you. We want to make sure that every 
American who wants a job has it and I would welcome anyone in 
this room to come up. I will sign you up. I will sign up your 
kids as long as they are 18 years old. But the ability to get 
U.S. workers, again, out to these extraordinarily remote places 
has been very, very, very difficult.
    So I would just ask that you work with us and appreciate 
the timeliness of this issue that we are dealing with right now 
because the salmon do not care when the permits are issued. 
They do not care whether or not we have got processors in 
place. So I appreciate your attention to this.
    Secretary Kelly. Will do.

                           POLAR ICE BREAKERS

    Senator Murkowski. I had an opportunity yesterday to ask 
Admiral Richardson this same question. And I recognize the 
efforts of the Coast Guard in partnership with Navy to 
accelerate the design and the construction of polar ice 
breakers, as we are dealing with a very aging fleet. The Coast 
Guard's budget has $19 million for an ice breaker program. We 
all know that that does not build us an ice breaker, but it is 
getting us moving. Navy has not requested any funding.
    So I would ask you as we are developing this fiscal year 18 
Budget what funding is needed to keep the program on its 
accelerated path. I think it is important that we look to the 
savings that can be gained by block buying, but we need to have 
a program in place. We need to have a vision for how we are 
going to respond as an arctic nation with the infrastructure 
that we need.
    Secretary Kelly. Okay. I agree, Senator. I mean, we clearly 
need those types of vessels if we are going to compete in any 
way in the Arctic. I would have to--and let me take it for the 
record or a brief or whatever. I will get back to you on how 
the Coast Guard Intends to lay out a comprehensive program to 
get to the--I think it is right now three--six icebreakers, 
three and three. You know that. So let me get back to you on 
that, but I am with you 100 percent in the fact that we need to 
have a program that gets us from where we are now, which is 
pretty humble, to at least full capability with six vessels.
    [The information follows:]

    The Coast Guard's fiscal year 2018 Capital Investment Plan 
delivered to Congress includes funding for the polar icebreaker 
acquisition. The Coast Guard will continue to work with Congress 
through the Administration on how best to fund these national assets.

    Senator Murkowski. We appreciate that.
    Mr. Chairman, I had mentioned that there has been a lot of 
discussion about the southern border. Nobody really thinks 
about the exposure on the northern end, but the reality is that 
we are seeing Arctic sea ice decrease. It is allowing for 
greater accessibility.
    Secretary Kelly. Right.

                  BORDER SECURITY: WORKING WITH CANADA

    Senator Murkowski. Which is all good and interesting, but 
it also presents some security challenges for the United States 
as well as Canada. We do not have border patrol. We do not have 
any security along that entire U.S. coast that is called 
Alaska, some 33,000 miles of coastline that we have got up 
there. And it is just--it is an open opportunity.
    So I will not ask you to comment on this now, but know that 
one of the things that we are looking at is whether 
partnerships with Canadian law enforcement and security 
agencies can come together to help facilitate sharing of 
information as it relates to security threats in the North 
American Arctic, whether or not we should consider establishing 
an Arctic security office in partnership with Canada. These are 
things that have come about as part of the Arctic Council 
discussions, but I think it is going to require a review in an 
area that we just have not been focused on at all.
    Secretary Kelly. Great point. I have not thought of it and 
I will tell you, and I think you know this. I mean, our 
partnership information sharing and everything is near perfect 
with Canada, but I had not thought of that point about perhaps 
even opening an office, but we are on that.
    Senator Murkowski. We will look forward to discussing it 
with you.
    Thank you, Mr. Chairman and Ranking Member.
    Senator Boozman. Thank you, Senator Murkowski.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    At this point in time, this hearing has either been going 
on for too long or just started in your mind. I very much 
appreciate----
    Secretary Kelly. I love this.

                           REAL ID: EXTENSION

    Senator Tester. Yeah. That is good. I very much appreciate 
it. I mean, you know, it is real mental gymnastics because of 
the size of this department where you have to jump from issue 
to issue.
    I am going to go back and touch base on the one that we 
talked about before this hearing very quickly and that we are 
kind of in the same boat as Oklahoma. I do not know if they 
have passed a law yet, but we have, to obtain a compliant 
license. I anticipate the governor will sign that law very 
soon.
    And so the question becomes if we will get an extension, if 
we are moving fast enough as a state to get DHS' support and 
that we are actually towards a Real ID compliant license and if 
you are willing to give an extension or at least give me some 
sort of idea where we are going to be heading here.
    Secretary Kelly. Well, Senator, a couple of points. You 
know, the vast majority of the states have either accomplished 
the task of the 2005, law, or are really making great progress 
and will be there very soon. As I mentioned before, in those 
states that are not nearly as close to completion yet--your 
state is an example--I have talked to the governor. There are a 
couple of other states I have talked to as well that are in the 
same kind of place. I offered to send my folks.
    Senator Tester. Yes.
    Secretary Kelly. And we have done that to work with the 
state to say, ``Okay, you are close or you will never get 
there.'' The point is, in those states, Senator, and I do not 
know where Montana is right now, but in those states that 
simply cannot get there from here, I would say that it would 
not make, in my mind, sense to give an extension. That said, we 
are absolutely committed to working with the states shoulder to 
shoulder on this to make it happen.
    But I would offer again to every state that is not 
compliant as of yet to really start talking to their citizens. 
We have established a public affairs campaign on our own 
focused on people to get alternate means of identification.
    Senator Tester. Okay. So back in 2005 we passed--I happened 
to be in the state legislature back then--we passed a law that 
said Montana is not to comply with Real ID. What this bill that 
was passed this spring did was the second line says it all. 
``This bill directs the Montana Department of Justice to issue 
Montana driver's license or ID cards that comply with the Real 
ID Act of 2005.'' It strikes that law that was passed in 2005 
and directs DOJ in Montana to meet the standard. It is pretty 
clear. So hopefully if you have any issues in this let me know 
because this needs to be solved, quite frankly. I think----
    Secretary Kelly. I mean, you know me, Senator. I want to 
work it out.

                    BORDER SECURITY: EMINENT DOMAIN

    Senator Tester. Okay, good.
    Eminent domain, one of the issues that were brought up is 
that the rights of current landowners on the southern border if 
a wall was to be built. Can you confirm that nothing in this 
recently passed DHS Appropriations Act interferes or even 
facilitates changes in landowner rights?
    Secretary Kelly. I cannot confirm that. I will get back to 
you, Senator, if that is all right. I cannot confirm it, but I 
am hypersensitive to this issue of eminent domain.
    [The information follows:]

    Limited additional land acquisition is assumed for the fiscal year 
2017 replacement projects as the new border wall is expected to align 
with the existing barrier's footprint.

    Senator Tester. Okay.
    Secretary Kelly. And private property. As we look at places 
to put the physical barrier--I would call it a wall. In some 
places perhaps it would require an eminent domain action, but I 
am very sensitive to that as well.
    Senator Tester. Yeah. I mean, it is--and while you are 
looking at the recently passed act, look at this one too to 
make sure it also does not facilitate or interfere.
    Secretary Kelly. Right.
    Senator Tester. That is a very important issue for me too.
    Secretary Kelly. You know, and my staff tells me that from 
the--what is it--the 2008 action on the border, we are still in 
court on eminent domain issues, so.
    Senator Tester. Yeah. I mean, look, that is one of the--
there has been a number of questions here today that has been 
asked by both sides of the aisle on the validity of, and I know 
it is a term, the wall, but I am seeing a concrete wall in my 
head when we talk about the wall. And I think that as we look 
at potential reductions in local, and by the way, if there is 
money to be saved there, Chairman and I are in with you 
truthfully. But if this is an issue, this whole thing that we 
have been talking about today is an issue, and you know this 
better than I, you cannot make a mistake.
    Secretary Kelly. Right.

                      BUDGET CUTS AND ITS EFFECTS

    Senator Tester. And so if you pull away from local and it 
does in fact create a problem, we have not done the right 
thing. Same thing with TSA. Same thing with the R&D. Same thing 
with the FEMA stuff. And so that is why I think there is a 
concern here on we are going to spend a ton of money on keeping 
the southern border secure and are we really getting the 
biggest bang for the buck, and if we are not, are we 
sacrificing these other programs which actually can be just as 
problematic as possible. You get my drift?
    Secretary Kelly. I do.

           AVIATION SECURITY: ENHANCING SCREENING TECHNOLOGY

    Senator Tester. Okay. Let's talk about the laptop ban. I 
appreciate the heads up on it, by the way, by your people. Do 
you think it should extend beyond the ten airports that it 
already is in?
    Secretary Kelly. Possibly. If I could elaborate just a bit.
    Senator Tester. Yeah. Go ahead. Yes.
    Secretary Kelly. What I have learned in the last 120 days 
that I was not nearly as aware of prior to that in the 
military----
    Senator Tester. Right.
    Secretary Kelly. Is this relentless attempt on the part of 
terrorists to blow up airplanes in flight.
    Senator Tester. Yeah.
    Secretary Kelly. Ideally big airplanes with a lot of 
people, ideally a U.S. carrier, ideally on the way to the 
United States. We are watching--I cannot get into it in this 
group in this hearing room.
    Senator Tester. No, I got you.
    Secretary Kelly. But we are watching a number of very, very 
sophisticated advanced threats right now. I obviously would 
not--and it was my decision to make. I obviously would not have 
put 10 airports on the list in March, but as we look at the 
threat and how it has morphed, we are looking at perhaps other 
ways to reinforce the security procedures at every airport in 
the world.
    Senator Tester. Okay.
    Secretary Kelly. So it is possible that it would expand.
    Senator Tester. Okay. Okay. And what are we doing to 
enhance existing screening technology to develop new systems? 
Are we making investments in those----?
    Secretary Kelly. We are.
    Senator Tester. Types of technologies?
    Secretary Kelly. Right. Current technology that you 
typically see at the airports for baggage as well as for people 
are just about at their limit.
    Senator Tester. Okay. Okay.
    Secretary Kelly. We are looking at advancing that.
    Senator Tester. But we are working it in?
    Secretary Kelly. We are.
    Senator Tester. So how do you square that with the 21 
percent cut in R&D?
    Secretary Kelly. Well, as we look to the technology after 
next, we are working with our international partners. They are 
in with us. We are working with the airlines themselves, both 
national and international airlines. We want to share the cost 
of the R&D. It is in everyone's interest to do it, but 
ultimately we have to spend what we need to spend to find the 
technology to protect air travelers.
    Senator Tester. Okay. So you have had the conversations 
with our allies that are of a similar mind and airline 
companies that they are willing to pitch in?
    Secretary Kelly. Right. They are willing to do anything not 
to have me do some of the things that we are contemplating.
    Senator Tester. And money is one thing that they are 
willing to do?
    Secretary Kelly. That is my assumption. Yeah. We are not 
going to----
    Senator Tester. Okay. So here is the deal as we go through 
this process, and I appreciate you, Mr. Secretary. I do. But as 
we go through this process we cannot cut R&D if it is not going 
to be backfilled somewhere.
    Secretary Kelly. Okay.
    Senator Tester. If it is going to be backfilled somewhere, 
and by the way, God bless you for looking at it because I think 
it is good, but we need to know that, okay.
    Secretary Kelly. Yes, sir.

   TRANSPORTATION SECURITY ADMINISTRATION: ADMINISTRATION NOMINATION

    Senator Tester. That would be good. And speaking of TSA, 
when can we anticipate a nomination to lead the TSA?
    Secretary Kelly. We are really close.
    Senator Tester. Really close?
    Secretary Kelly. We are really close.
    Senator Tester. Is that like the end of the week? I would 
just say, look, I have got a ton of stuff and we will put them 
in for the record, a ton of questions, and they are all really 
good and they have not been asked here before, but I just want 
to tell you the overall heartburn I have with this budget is is 
it a budget where we are getting the most bang for the buck, 
especially as it applies to the wall.
    Secretary Kelly. Right.
    Senator Tester. And I do not really care, to be honest with 
you, if it is a wall or if it is a drone or if it is manpower. 
I just want to get the biggest bang for the buck to keep this 
country safe. And I think you are on the same page there.
    Secretary Kelly. I am.
    Senator Tester. But it may require you telling somebody 
that this is a better direction to go.
    Secretary Kelly. I would not hesitate.
    Senator Tester. Good. Thank you and I know you would not. 
Thank you.

                                FENTANYL

    Senator Boozman. Thank you, Senator Tester.
    In regard to R&D, one of the huge problems we have is the 
toxicity of fentanyl.
    Secretary Kelly. Right.
    Senator Boozman. Do we have the ability--are we working on 
acquiring or developing something that will detect it and make 
it such that our Border Patrol officers, the dogs that are out 
working these things are safe? I know this is a huge problem.
    Secretary Kelly. We are, Senator, but one of the ways, as 
you well now, fentanyl is so powerful. And, oh, by the way, 
there is a new thing that is more powerful by a factor--the so-
called elephant tranquilizer--that is worse or more effective 
or more. But we are working with China. They are our Drug 
Enforcement Administration (DEA) and others are already over 
there working with China to try to stop it, but the point is it 
is harder than anything else because a tiny, tiny amount goes 
so far, so to speak.
    So some of this stuff is coming in by the mail. But I 
visited one of our CBP facilities recently in Seattle, I think, 
where all the international mail goes through. And there is an 
amazing amount of things that they find, to include fentanyl.
    Senator Boozman. This concludes our hearing.
    Secretary Kelly. Thank you, sir.
    Senator Boozman. Thank you very much for being here. We 
appreciate your testimony.
    Also, in an effort to really get up to speed, I visited a 
number of Homeland Security facilities and you should be 
complimented in the sense that it seems to me like morale is up 
greatly.
    Secretary Kelly. I hope.
    Senator Boozman. And the agents, all of the different 
agents and agencies that you represent, appreciate the fact 
that they are able to do their job and I think have a great 
deal of confidence in you. So we thank you for that.
    Secretary Kelly. They are really good people.
    Senator Boozman. Good people, exactly.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing will remain open for two weeks from today. 
Senators may submit written questions for the record. We ask 
that the Department respond to them within a reasonable amount 
of time. I want to thank my staff and Senator Tester's staff 
for their hard work in making the hearing possible.
              Questions Submitted by Senator John Boozman
    Question. Mr. Secretary, the recently enacted appropriations bill 
requires that you provide a comprehensive plan to Congress that details 
exactly how we intend to secure the Southwest land border.
    Do you anticipate that this plan will call for different solutions 
at different places along the border based on terrain, risk, input from 
Border Patrol agents, and other relevant factors?
    When can we expect to receive this plan?
    Answer. Yes. CBP is presently drafting this report to Congress.
    Question. Mr. Secretary, the Federal government's computer networks 
are under constant attack. We have worked with the Department to ensure 
the continued deployment of capabilities like Continuous Diagnostics 
and Mitigation (CDM), but remain frustrated by the Department's 
inability to maintain a predictable schedule and to urge other agencies 
to chip in and adopt the technology.
    Are we making progress toward completing Phase 3 and embarking on 
Phase 4 of the Continuous Diagnostics and Mitigation (CDM) program?
    What is the Department doing to encourage other departments and 
agencies to assume more responsibility for the funding of CDM beyond 
the initial phases?
    What type of review is being done to ensure the Department is not 
supplanting the budgets of other departments when it comes to 
cybersecurity?
    Answer. Continuous Diagnostics and Mitigation (CDM) Phase 3 focuses 
on Boundary Protection and Network Events and was funded for the first 
time in fiscal year 2017. For Phase 3, the National Protection and 
Programs Directorate's (NPPD) Office of Cybersecurity and 
Communications focuses on cybersecurity of networks through ongoing 
assessment and incident reporting standardization. A small amount of 
funding in fiscal year 2017 has also been allocated to begin pre-
planning efforts for Phase 4, which focuses on protecting data.
    Subject to available funding in fiscal year 2018, the CDM program 
will continue working with agencies and industry system integrators on 
Phase 3 efforts in fiscal year 2018, establishing ongoing authorization 
and incident response optimization. Furthermore, subject to available 
funding in fiscal year 2018, NPPD will ramp-up Phase 4 planning, 
evaluating approaches for data loss prevention, data rights management, 
micro-segmentation, and advanced data protections in the agencies.
    The Department continues to implement Phases 1 and 2. The Phase 1 
tool deployment will be completed across all of the major Federal 
departments and agencies that are subject to the requirements of the 
Chief Financial Officer (CFO) Act in the first quarter of fiscal year 
2018. CFOs are, and will be, reporting to the Agency and Federal 
Dashboards. Phase 2 tool deployment continues into fiscal year 2018, 
and Phase 2 reporting to the Dashboards will occur later in fiscal year 
2018.
    The Department is working closely with other departments and 
agencies to ensure they have accounted for the out-year maintenance 
costs for the CDM tools in their budgets. This is necessary to ensure 
the tools remain updated. The CDM program staff met regularly with 
various agency Chief Information, Information Security, and Financial 
Officers; budget officers; and CDM points of contact during the past 
year to ensure awareness of the CDM program and appropriate planning 
for the agency CDM maintenance costs. The CDM program also has worked 
closely with the Office of Management and Budget in an effort to ensure 
agencies are aware of and planning for future maintenance costs. While 
DHS has worked to ensure that departments and agencies have included 
CDM costs into their budgets, DHS does not have control over other 
agencies' budgets.
    The ability to quickly address the cyber threat is extremely 
important to agencies operating in a constantly changing cyber 
landscape. The Department is taking advantage of the technical 
modernization capability offered by CDM commercial off-the-shelf tools. 
Similar interest has been expressed for the CDM dashboard's ability to 
continuously monitor information in near real-time. The dashboard 
implementation will provide leaders with the ability to produce 
customized reports, track results, and better inform decisions on cyber 
risk assessments.
    The Department works closely with the Office of Management and 
Budget (OMB) to ensure that the CDM program does not supplant the 
budgets of other departments. The Department, through the CDM program, 
works closely with the agencies, General Services Administration, and 
the industry system integrators to help agencies fill cybersecurity 
gaps. The licensing and maintenance responsibility are transferred to 
the agencies for management.
    Question. Mr. Secretary, we are all concerned with the opioid 
crisis in the United States.
    What are some of the things the Department is doing to prevent 
opioids from being smuggled into the United States?
    Is there particular equipment Customs and Border Protection (CBP) 
needs to better detect the most potent opioids, namely fentanyl?
    What are some specific ways Immigration and Customs Enforcement 
(ICE) investigators are targeting transnational criminal organizations 
involved in opioid trafficking?
    Are you working with other Federal agencies and international 
counterparts to combat the opioid challenge?
    Answer. The U.S. Coast Guard, U.S. Immigration and Customs 
Enforcement (ICE), and U.S. Customs and Border Protection (CBP) are 
actively engaged in efforts to combat the opioid crisis.
    Coast Guard Drug Interdiction operations support national 
strategies to disrupt the market for illegal drugs and prevent 
transnational threats from reaching the U.S. The Coast Guard is the 
lead Federal agency for drug interdiction on the high seas. It shares 
the lead for drug interdiction in the territorial seas of the U.S. with 
CBP, with assistance from the Department of Defense (DoD), the Drug 
Enforcement Agency (DEA), and ICE. Coast Guard operations align with 
the National Drug Control Strategy and the National Interdiction 
Command and Control Plan, which target the flow of opioids and other 
illicit products to the United States.
    CBP continues to collaborate and strengthen ties with investigative 
partners from the U.S. Postal Service, ICE, and DEA. CBP is sharing 
information with these agencies and conducting joint enforcement 
initiatives, including intelligence-driven special operations designed 
to identify and disrupt drug smuggling at the border. CBP is also 
actively working with DEA's Special Operations Division to link foreign 
synthetic drug mail shipments and suppliers to domestic distribution 
networks in furtherance of investigative cases and to identify new 
shipments.
    As the largest investigative agency within DHS, ICE Homeland 
Security Investigations (HSI) leverages its broad authority to support 
border enforcement by working in close coordination with CBP and the 
U.S. Coast Guard in a unified effort with our U.S. interagency partners 
to target transnational criminal organizations involved in illicit 
synthetic opioid smuggling and trafficking.
                         network identification
    The Special Operations Division (SOD) Heroin and Fentanyl Task 
Force (HFTF) is supported by ICE HSI, CBP, the DEA, and other part-time 
embedded agencies. The SOD-led interagency task force works to 
proactively identify, disrupt, and dismantle the production, 
transportation, and financial networks behind the heroin and fentanyl 
supplying organizations that impact the United States. The working 
group focuses the collaborative authorities and efforts of the invested 
agency resources to better share and de-conflict information, and to 
target heroin/fentanyl international and domestic threat streams 
through proactive interaction and direct communication with the field.
    ICE HSI actively pursues the financial networks used to sustain the 
fentanyl trade in support of field investigations. As with the sources 
of supply, the method of currency movement has also adapted with 
current trends. Wholesalers and end-users utilize money service 
businesses, bank-to-bank wire transfers, PayPal, and virtual currency 
among others to successfully finance the supply chain. ICE HSI 
continues to engage financial industry partners to better identify the 
routing of the illicit proceeds.
    Suppliers, brokers, and U.S. distributors and consumers often 
communicate through dark web marketplaces, Internet chat rooms, peer-
to-peer applications, emails, skype, or other means of electronic 
communications. The ICE HSI Cyber Division further exploits these 
methods of communication in furtherance of field-initiated criminal 
investigations. Moving forward, ICE HSI Cyber will exploit the digital 
footprints left by involved parties. This exploitation will provide 
additional investigative avenues and exponentially increase targetable 
data points.
    ICE HSI has seen supply chains involving the importation of raw 
powder from foreign sources, pills, packaged loads in vehicles, to now 
seeing the importation of materials used to produce the finished 
product. The flow continues to transit through postal systems, express 
consignment hubs, and land borders. The finished product's appearance 
(pills, powders, sprays, etc.) can vary based on demand and the target 
market. In addition to the chemicals and/or binding agents, regional 
distributors often procure pill making implements (pill presses, 
fillers, cleaners, dyes) to effectively produce finished product 
clandestinely. ICE HSI currently works with DEA, CBP, and United States 
Postal Inspection Service (USPIS) to target these imports.
               support to cbp targeting and interdiction
    Every day, CBP's National Targeting Center (NTC) works quickly and 
quietly to identify people and products that pose potential threats to 
our Nation's security, and to stop them from entering the United 
States. The NTC employs highly skilled targeting specialists using 
state-of-the-art technologies to identify high-risk people and cargo in 
the air, land, and sea environments, both entering and leaving the 
United States. The NTC carefully targets and coordinates examination of 
the small percentage of shipments and travelers who may be connected to 
transnational crimes, such as heroin and fentanyl smuggling.
    The NTC-Investigations (NTC-I) leverages information gathered 
during ICE HSI investigations to target the flow of drugs into the 
United States. The NTC-I works to share information between CBP and ICE 
HSI entities world-wide.
    NTC-I conducts post-seizure analysis based on ICE HSI seizures in 
the field and CBP seizures at the ports of entry. The analysis is 
critical to identifying networks that transport heroin and fentanyl-
related substances into and throughout the United States. A key 
component of the post-seizure analysis is the financial investigation. 
The NTC-I focuses on the financial element of the smuggling 
organization by exploiting information gathered from multiple financial 
databases.
    NTC-I also works closely with CBP to target illicit shipments being 
imported into the United States for interdiction at the international 
mail facilities. Targeting is based on numerous characteristics, 
including past seizures and information on active smuggling networks.
    Consistent collaboration between USPIS, NTC-I, and CBP has greatly 
contributed to the success in combatting illicit shipments of fentanyl-
related substances. Sources in China frequently utilize the United 
States Postal Service to ship fentanyl in small parcels to avoid 
detection by CBP. The NTC-I leverages the working relationship with 
USPIS to target these shipments for interdiction at local post offices. 
The NTC-I has been instrumental in coordinating interdiction and 
extended border searches on fentanyl-related shipments leading to 
multiple seizures in the United States and abroad.
    A priority for DHS and CBP is a commitment to increased regional 
communication among the Northern Triangle countries, along with the 
United States and Mexico, in order to ensure maximum connectivity and 
information sharing on narcotics flows through the region. 
Transnational criminal organizations (TCOs) operate throughout the 
Northern Triangle. Their movement between countries makes it difficult 
for one country to identify and prosecute the organizations. Regional 
cooperation together with other partners (U.S. Government, Government 
of Mexico) is key to attacking the networks.
    Question. Mr. Secretary, we are behind in our efforts to complete 
major flood mapping work, and despite efforts by this Subcommittee to 
support programs like RiskMAP, your budget proposal shifts mapping 
costs back to policyholders and reduces the total amount available for 
mapping.
    How can we ensure flood insurance premiums remain affordable if we 
shift mapping costs to policyholders?
    What is your plan to make sure that policyholders and our 
communities can be confident that your flood maps are accurate and 
reliable?
    Answer. The fiscal year 2018 budget proposes a new surcharge to be 
assessed on NFIP policyholders, proportional to the insured value of 
the policy, to support flood mapping activities. This is in addition to 
approximately $154 million in funding for mapping that is already 
derived from NFIP fees. FEMA recognizes that NFIP policyholder 
affordability is a challenge in the fiscal year 2018 budget. Currently, 
FEMA is developing an Affordability Framework to determine the 
categories of policyholders and potential policyholders most in need of 
financial assistance in order to purchase flood insurance.
    FEMA is considering several ways to apportion the surcharge among 
policyholders. The proposal to establish a surcharge would support $190 
million of funding for Risk MAP that the President's Budget directs to 
be paid for by the policyholders.
    Outside high-hazard areas, a residential homeowner could pay as 
little as $5 for $50,000 of coverage and as much as $35 for $350,000 of 
coverage ($250,000 in building coverage and $100,000 in contents 
coverage). Non-residential structures would likely be assessed higher 
surcharges because their insurance amounts are typically higher.
    Inside high-hazard areas, a residential homeowner could pay as 
little as $10 to $20, depending on the level of risk, for $50,000 of 
coverage, and anywhere from $70 to $140 for $350,000 of coverage 
($250,000 in building coverage and $100,000 in contents coverage). 
Again, non-residential structures would likely be assessed higher 
surcharges.
    FEMA maintains a robust set of standards and guidance that outlines 
the quality requirements with which all its flood mapping products must 
be created. These standards are reviewed and updated on a regular basis 
to make sure they remain current and efficient in accomplishing their 
objectives, and that they are appropriately accommodating of advances 
in science and technology that will increase overall program and data 
credibility. Additionally, these standards require certain levels of 
engagement and checkpoints with communities, to make sure that input 
and relevant data is considered in the overall mapping process. For 
example, standards were recently implemented that provide communities 
with opportunities to review the proposed engineering study methodology 
before actual data development begins, and then provide those same 
communities with the opportunity to examine (and, if warranted, provide 
updated) draft flood mapping data before receiving their preliminary 
Flood Insurance Rate Maps. Additional opportunities for stakeholder 
review and comment are provided during ``preliminary map release'' and 
``due process'' phases where community officials and outreach efforts 
to the communities educate the property owners regarding flood maps 
revisions and appeals.
    FEMA uses Geographic Information System (GIS) technology to 
coordinate the management of flood hazard mapping needs in a 
comprehensive approach, referred to as the Coordinated Needs Management 
Strategy (CNMS). One of the purposes of the CNMS inventory is to track 
the validity of New, Valid, or Updated Engineering (NVUE) studies, by 
assessing the quality of effective studies through a consistent review 
and update process. Studies need to be assessed every 5 years. With the 
current process, FEMA identifies and tracks the lifecycle of mapping 
needs of the FEMA flood hazard mapping program, known as the Risk 
Mapping, Assessment, and Planning (Risk MAP) program. The decision to 
update the map is based on evaluating indicators of the physical 
environment (e.g., land use, topography and changes to natural or man-
made features), changes in hydrography/hydrology, and engineering 
methods that have changed since the date of the effective analysis.
    To update the maps per the current standards, FEMA requires high-
quality topographic data showing the elevation of the land. FEMA has 
partnered with the United States Geological Survey (USGS) to acquire 
topographic data nationally using airborne lidar technology via the 3D 
Elevation Program (3DEP). Lidar topographic data meeting the 3DEP 
national standard (QL2) has been collected for over 28 percent of the 
conterminous United States and Hawaii, and the 2018 President's Budget 
included requests for the Federal government to continue acquiring 
Lidar data through 3DEP. In order to enhance and maintain the quality 
of the flood maps nationally FEMA needs accurate elevation data. As of 
the second quarter of fiscal year 2017, 59.3 percent of FEMA's riverine 
inventory of flood hazard data is up to date and accurate, and 100 
percent of the populated coastal areas are in varying phases of 
receiving updated flood hazard information.
    In 2016, the Technical Mapping Advisory Council (TMAC) assessed 
whether flood hazard data resulting from the National Flood Mapping 
Program is technically credible. In their 2016 National Mapping Program 
Review they found the following, ``TMAC finds the National Flood 
Mapping Program, when applied as designed, supplies technically 
credible flood hazard data in areas where Flood Insurance Rate Maps are 
prepared or updated.''
    Question. Mr. Secretary, your Department is one of the largest 
buyers in the Federal government with one of the most complex and 
diverse range of missions. Developing and maintaining a skilled 
acquisition workforce to manage these needs is essential.
    Does the Department have a comprehensive plan on how best to train 
and organize its acquisition workforce?
    Are you experiencing any recruitment or retention challenges with 
your acquisition workforce?
    Answer. The organization of the DHS acquisition workforce is driven 
by mission priorities and the programs and initiatives designed to 
achieve those priorities. The performance of the acquisition workforce 
is monitored to ensure goals are achieved. Staffing assumptions are 
validated against previous year spend, future year initiatives, and 
performance targets for acquisition. The DHS Office of the Chief 
Procurement Officer (OCPO) develops a four-year Acquisition Workforce 
Strategic Human Capital Plan (Plan) that is updated annually. It is a 
comprehensive framework to align acquisition workforce skills with the 
overall Department mission priorities, goals and objectives. It 
incorporates the planning, coordination, and implementation of 
initiatives to ensure continuous improvement of the Department's 
acquisition workforce. Under the Plan, OCPO provides training for the 
DHS acquisition workforce that is largely driven by competency 
assessments and certification requirements for the career field, such 
as those mandated and monitored annually by the Office of Management 
and Budget's Office of Federal Procurement Policy, as well as DHS's 
unique requirements driven by mission needs.
    OCPO's Homeland Security Acquisition Institute (HSAI), is 
responsible for delivering training and career development. DHS 
acquisition workforce members completed 9,000 courses last year. HSAI 
also leverages training from other government-wide training sources, 
when available, such as the Federal Acquisition Institute and the 
Defense Acquisition University, and delivers training solutions 
nationwide. HSAI confirms that all necessary training is completed 
before conferring certifications and provides career paths and other 
tools to help guide the development of the DHS acquisition workforce. 
The Plan addresses recruitment and retention of the acquisition 
workforce through programs such as the Acquisition Professional Career 
program, a three-year program for entry-level career professionals and 
other programs for mid-career development designed to retain and groom 
the future acquisition leaders of the Department. Finally the 
Department continuously evaluates the performance of its acquisitions 
to ensure that training, certifications, and development are achieving 
the Department's mission needs. Not only does the Department assess 
performance against goals, it has tools that provide the basis to 
assess the categories of spend and capabilities across the operational 
buying activities to promote more efficient and effective procurement 
delivery services and leverage total demand through category management 
and strategic sourcing practices.
    DHS faces the same challenges as other Federal agencies in 
attracting and retaining personnel for the high-demand career field of 
acquisition. Not only does DHS compete with other Federal agencies for 
the most promising candidates, but also with the private sector. That 
is why the extension of the Direct Hire statutory authority in the 
National Defense Authorization Act, currently set to expire at the end 
of this fiscal year, is critical. In addition to using this authority, 
the Office of the Chief Procurement Officer (OCPO) manages several 
programs designed to attract and retain acquisition professionals. The 
Acquisition Professional Career Program (APCP) is an entry-level career 
development program for aspiring acquisition professionals. The APCP 
addresses the Department's critical mission readiness and succession 
planning needs by working with Components to recruit, train, and retain 
acquisition professionals. While participants are in the three-year 
program, OCPO pays their salary, benefits, and training costs in order 
to grow them from entry-level apprentices to career professionals 
working in Component program and procurement offices.
    According to many human capital studies, career development is key 
to retaining a high quality workforce, and OCPO has several programs 
focused on mid-career acquisition professionals, including the 
Executive Development Program that provides leadership training, class 
projects designed to solve cross-component challenges, and development 
opportunities to groom high-performing, mid-career professionals into 
future acquisition leaders. A new mentoring program launched this year 
focuses on mid-career professionals and OCPO is preparing to pilot a 
new tool designed to empower acquisition professionals to track their 
own progress against career development goals. OCPO is continuously 
seeking creative and innovative ways of attracting and retaining the 
best talent for the DHS acquisition workforce.
    Finally, the acquisition workforce, particularly series 1102 
contracting specialists, is a mission critical occupation for which 
workforce plans have been developed to align human capital resources 
with the overall department mission, goals, and objectives. 
Recruitment, retention, and development activities are targeted at 
skills necessary to support agency acquisitions.
    Question. Mr. Secretary, you have dramatically reduced the rate of 
illegal border crossings during your time as Secretary, but migrants 
are continuing to leave places like Honduras and El Salvador, heading 
north, but they are stopping in Mexico.
    How are you working with the Department of State and your 
international counterparts to ensure aid programs are helping reduce 
potential future flows of migrants through our land borders?
    What more can be done to predict how migrants flow into the United 
States?
    Answer. U.S. Customs and Border Protection (CBP) is engaged with 
the Northern Triangle and Mexico in a number ways. Since May 2015, as 
part of the Central America Regional Security Initiative (CARSI), the 
Department of State (DOS), Bureau of International Narcotics and Law 
Enforcement Affairs (INL), has provided CBP with funding to provide 
capacity building and nine permanent advisors in Central American 
countries. Currently in the Northern Triangle, CBP has five advisors: 
El Salvador-(1); Guatemala-(2); Honduras-(2). Throughout the Northern 
Triangle countries, CBP leverages its Advisor network to engage local 
immigration and police authorities, as well as our Federal partners, 
such as Immigration and Customs Enforcement (ICE), to monitor, track, 
and deter the illicit migration of Third Country Nationals (TCNs) and 
counter drug smuggling activities.
    In Mexico, CBP has helped establish the Surge Mentorship Program 
(SMP), along with other efforts, to mentor Mexico's Instituto Nacional 
de Migracion (INM) officers, to increase INM's capacity to address 
migration flows. The program utilizes integrated teams of DHS personnel 
to provide technical assistance as INM responds to emergent migratory 
trends and allows for an increase in biometric intake of individuals 
considered Special Interest Aliens (SIAs) by DHS and/or INM. More 
broadly, CBP is collaborating with DOS/INL to identify ways to assist 
INM with the development of Standard Operating Procedures to enhance 
their training and more standardized processes/procedures.
    CBP will continue to monitor indicators of migration flows to the 
United States as a measure of change, focusing on CBP apprehension and 
inadmissible data. All-source intelligence analysis that leverages all 
of CBP's data holdings as well as partner agency information is the 
foundation of our understanding of the factors contributing to 
migration.
    The collection of data on the number of migrants encountered 
between U.S. ports of entry (apprehension) and at ports of entry 
(inadmissible) can provide useful data on the levels of migration flows 
to the U.S. CBP will coordinate and collaborate relevant and timely 
strategic intelligence with Federal, state, local, territorial, tribal, 
and international partners on identifying any changes in push factors 
to include economic and political instability, levels of crime and 
violence, military conflict, harsh environmental conditions such as 
drought and natural disasters.
    Understanding of push factors is a critical element in being able 
to forecast possible future migration from regions of the globe 
affected by these conditions. Equally important in determining 
migration flows are pull factors. Comprehension of these elements can 
give us better knowledge of the reasons for future migration flows to 
the United States. These factors include family reunification, 
socioeconomic opportunities, political stability and security, law and 
order, migrant perceptions of U.S. immigration policy, remittances, and 
the relevant diaspora population.
    Intelligence exchanges with our international partners, especially 
through transit countries, can further enhance our ability to estimate 
potential future migration flows. International liaisons are provided 
focused collection requirements based on intelligence gaps to better 
prioritize and focus interviews of migrants en route to the United 
States to identify emerging trends and better understand the migration 
decision calculus. Analysis of transit countries, immigration policies, 
visa requirements, transportation infrastructure, enforcement 
capabilities, political and economic conditions will advance our 
ability to anticipate likely migration routes to the United States. In 
addition, tracking of Transnational Criminal Organizations who 
facilitate the movement of migrants is an important aspect of the 
overall migration issue to determine potential routes, modes of 
transportation and tactics. Migrants intending to enter the United 
States illegally or planning to claim asylum most often utilize human 
smuggling organizations that have an international network of 
operatives who can move migrants to the United States for a fee.
    Question. Mr. Secretary, many members of this Subcommittee are very 
proud of the good work being done by the men and women of the Coast 
Guard. We think about the incredible work they do to save lives or 
interdict illegal drugs at sea, but the Coast Guard is also a critical 
part of keeping commerce flowing up and down our rivers. Those of us 
from states with major rivers are particularly interested in making 
sure the Coast Guard has the resources it needs to continue to do this 
job well, and several of their river tender ships were built in the 
1940s and 1950s. The budget requests funding to design a new river 
tender fleet, however these funds have already been provided through 
our recently enacted appropriations bill.
    Can you explain to the members of the Subcommittee how the Coast 
Guard maintains commerce on our nation's greatest superhighways, its 
rivers?
    What is the next step this Subcommittee could take, beyond the 
recently-provided funding, to help modernize the Coast Guard's river 
tender fleet?
    Answer. U.S. Coast Guard presence and operations, including vessels 
and shore units, on the waterways of the Inland Marine Transportation 
System contribute to the safe flow of commerce estimated at 2.3 billion 
tons of trade valued at $1.69 trillion annually. The Coast Guard serves 
an important role in the movement of this commerce by maintaining 
structures, beacons, and buoys across the Nation's inland waterways. 
Mariners and the shipping industry depend on fixed and floating aids to 
navigation to safely navigate these waters and prevent catastrophic 
accidents, which could have wide-reaching environmental and economic 
impacts.
    The Coast Guard is appreciative of the support from Congress on 
efforts to recapitalize its aging inland and river tender fleet, which 
has an average age of 52 years. The Coast Guard will need continued 
support from Congress to ensure the recapitalization program is funded 
in subsequent years.
    Question. Mr. Secretary, last summer the Transportation Security 
Administration (TSA) processed approximately 225 million travelers and 
had to deal with unexpectedly long checkpoint lines. I commend TSA for 
its efforts last year to mitigate that situation as quickly as 
possible. TSA is predicting yet another record-breaking summer with 
approximately 234 million passengers, 9.3 million more than last 
summer.
    What are you doing to ensure that the Department is prepared for 
what the Transportation Security Administration is predicting will be 
yet another record-breaking summer travel season?
    Answer. The Transportation Security Administration (TSA) was 
prepared for the start of the summer travel period, typically marked by 
the Memorial Day holiday weekend and continuing through Labor Day. More 
than 2,000 additional TSA officers will be working this year compared 
to last year.
    Record numbers of passengers are expected at airports this summer, 
with peak travel periods of 2.5 million passengers occurring in June 
and July, including the Fourth of July weekend. Memorial Day 2017 was 
already a great success for TSA. Nationwide, over 94 percent of 
passengers waited less than 15 minutes to go through security during 
the holiday travel period, and on May 26, the beginning of the Memorial 
Day weekend, TSA screened 2.53 million passengers--the seventh busiest 
day of all time.
    Last year, TSA established the TSA Airport Operations Center (AOC). 
The center tracks daily screening operations, rapidly addresses any 
issues that arise, and deploys personnel, canine teams and technology 
where needed. In coordination with airport and airline partners, TSA 
aims to maintain effective and efficient security operations at 
checkpoints nationwide during the busy travel season. The AOC's hours 
of operation will be extended throughout the summer to ensure a healthy 
operational posture.
    Question. Mr. Secretary, the stresses of the 2016 presidential 
campaign, which was long and included an unprecedented number of 
candidates, took a toll on the men and women of the Secret Service. Are 
the additional funds provided by the recently enacted appropriations 
bill helping the Secret Service to rebound from the stresses of the 
2016 presidential campaign? Please describe steps you are taking to 
improve the recruiting strategy for the Secret Service. What retention 
and training incentive programs are you using to reduce attrition?
    Answer. The additional funds provided by the recently enacted 
appropriations bill are helping the Secret Service to rebound from the 
stresses of the 2016 Presidential Campaign. Specifically, the enacted 
bill allows the Secret Service to continue its strategic hiring and 
lays the foundation for the agency to achieve 7,150 filled positions by 
the end of fiscal year 2018. The enacted bill also provided $8 million 
above the request for three programs to help with retention--student 
loan repayments, tuition assistance, and child care subsidies. These 
programs will assist the Secret Service with its comprehensive strategy 
to reduce attrition. In addition, the enacted bill provided $13 million 
above the request to fund premium pay for Secret Service employees who 
worked protective overtime in excess of statutory pay caps as 
authorized by the ``Overtime Pay for Protective Services Act of 2016,'' 
which Congress passed last December. The enacted bill also provided 
$28.5 million above the request for additional special agent relocation 
costs, which enables the refresh of employees assigned to protection 
(both journeymen and supervisors) as well as refresh of employees 
assigned to foreign field offices and some attrition-replacement hiring 
for the Uniformed Division officer positions. The protection refresh 
will enable special agents who are completing their 6-year commitment 
to protection to be moved back to the field as well their backfill to 
be moved in to replace them.
    In fiscal year 2016, with the help of a contracted marketing and 
advertising company, the Secret Service enhanced its National 
Recruitment Advertising Campaign (NRAC) based upon growing trends and 
industry best practices for recruitment and outreach.
    Building on the successes borne from this campaign, in fiscal year 
2017, the Secret Service began implementing strategic process 
improvements to help support the increased influx of applicants while 
reducing overall time to hire. These process enhancements and 
improvements to the Secret Service recruiting strategy include:
  --Training special agents, Uniformed Division members, 
        administrative, professional and technical staff, and special 
        emphasis program managers to function as collateral-duty 
        recruiters;
  --Training and advising managers and supervisors on recruitment and 
        diversity;
  --Redistributing the workload between Secret Service headquarters and 
        field personnel, freeing up the field to be a force multiplier 
        for outreach by:
    --Streamlining applicant processing by consolidating certain steps 
            (designed to reduce the time to hire by 290 days);
    --Implementing computer based applicant testing;
    --Developing and implementing the Applicant Lifecycle Information 
            System (ALIS), a robust, integrated end-to-end applicant 
            tracking system;
    --Increasing, by 100 percent, the use of Entry Level Assessment 
            Center (ELAC) events where applicants are processed, by 
            teams of headquarters personnel in conjunction with local 
            offices, through several stages in the hiring process in a 
            48 hours timeframe instead of several months.
  --Creating and staffing an ELAC branch responsible for conducting 
        strategic events to move high volumes of applicants through 
        several stages of the hiring process in short periods of time 
        and allowing the Outreach Branch to better focus on recruiting 
        efforts;
  --Involving subject matter experts in representing their disciplines 
        during recruitment events; and
  --Leveraging social media to identify and publicize career 
        opportunities to a highly qualified, diverse applicant pool and 
        assess results for tangible gains.
    The Secret Service's sole group retention bonus was for the 
Uniformed Division and was implemented in May 2015. This retention 
bonus expired May 2017. The Secret Service is researching new 
parameters to reestablish and perhaps enhance the retention incentives 
under the authority granted by DHS Directive 251-01-003 (``Department-
Wide Plan for Retention Incentives for Employees likely to Leave 
Federal Service''). Some changes that are under discussion include 
increasing the retention bonus from 5 percent to 10 percent of a UD 
Officer's basic pay, seeking a waiver to exceed the 10 percent 
limitation on group incentives, and restructuring the service agreement 
and incentive payments to encourage longer periods of retention.
    In addition to the Uniformed Division Retention Bonus, the Secret 
Service has implemented or is in the process of implementing the 
following:

Student Loan Repayment:
        This program offers eligible employees loan repayments of up to 
        $10,000 per year for a maximum of $60,000 per employee. There 
        is a three year service agreement for participating employees.

Tuition Assistance Program:
        This program offers all employees an opportunity to continue 
        their education and professional development with direct 
        funding from the agency, of up to $10,000 per year, per 
        employee. Per OPM guidance, the service agreement for 
        participating employees is the greater of 1 year or three times 
        the length of the training period.

Senior Special Agent/Senior Resident Agent Program:
        Under this program, eligible employees with at least 15 years 
        of service as an 1811 in the Secret Service are paid $1,500 on 
        an annual basis, subject to the availability of funds, along 
        with the distinct designation in title of Senior Special Agent 
        or Senior Resident Agent.

Child Care Subsidy:
        The Secret Service is implementing a Child Care Subsidy Program 
        to assist employees and families with children under the age of 
        13, or disabled and under the age of 18, enrolled or will be 
        enrolled in licensed family childcare homes or center-based 
        childcare.

    In addition to these retention initiatives, the Secret Service has 
implemented an Administrative, Professional, and Technical (APT) Career 
Progression Plan that provides a clear ``road map'' for professional 
development and career advancement similar to those career development 
plans for special agents and Uniformed Division personnel.
    Discussions are also underway to determine the feasibility of a 
retention/relocation bonus for hard to fill operational assignments. 
Further discussions are also underway for a Cyber Security Retention to 
be in line with DHS's proposal for an enterprise-wide certifications/
rates and separate agency-specific certifications/rates.
    The Secret Service has also instituted a Special Agent Working 
Group, Cyber Retention Working Group, and a Deputy Assistant Director 
Working Group to analyze current submissions as well as develop ideas 
for future implementation.
    Question. Mr. Secretary, we can imagine the threats small unmanned 
aerial systems (UAS) can pose to our homeland security. They could be 
used to harm people or infrastructure or to carry drugs and other 
dangerous materials across our borders.
    What is the Department doing currently to study and counter the 
threat posed by small unmanned aerial systems (UAS)?
    Are there additional resources or authorities the Department needs 
to better defend the public against the threats posed by small UAS?
    Answer. The Department is working with interagency partners and the 
National Security Council to address this threat at the national policy 
level. Led by the Office of Strategy, Policy and Plans, the National 
Strategy for Aviation Security and its supporting plans are being 
updated to ensure threats from small UAS are addressed at the strategic 
policy level. We have delivered a government-wide legislative proposal 
to Congress that would provide additional Counter-UAS authorities to 
DHS and other Federal departments/agencies to legally engage and 
mitigate small UAS threats in the National Airspace System. Without 
these new authorities DHS and most of our Federal partners are left 
with conventional, non-electronic methods to defend against these UAS 
threats, which are not adequate to address the threat in a timely and 
responsive manner.
    Regarding technology development, the DHS Science and Technology 
(S&T) Directorate, working with the intelligence community, analyzes 
technologies currently employed by our adversaries. This effort to 
organize and update threat UAS data is evolving since other Federal 
partners have much the same needs, albeit different priorities, as the 
department does. S&T continually seeks to understand how the domestic 
UAS threat will evolve along with technology advancement. Through 
simulated exercises, table tops and test and evaluation, our homeland 
security capabilities and state-of-the art technologies are assessed 
against current and future threats in order to inform S&T investments 
in countermeasures.
    In support of field operations, S&T has a number of efforts. First, 
S&T sustains and refines a suite of computer models, databases, and 
analysis tools that inform and/or optimize Counter-UAS (CUAS) 
capabilities for operating components and Federal partners for site-
specific operations and national special security events. This 
collection of capabilities is known as our Counter-Small UAS Advisory 
and Review Toolkit, or C-SMART.
    Second, S&T collaborates with national and international partners 
to evaluate the performance of commercial and governmental CUAS 
solutions in settings that are relevant to homeland security. These 
results are processed for inclusion into our C-SMART suite, enabling 
S&T to provide advice and analysis to operating components based on the 
most updated and accurate information. In addition, an urban CUAS 
operational testbed is being developed for the national capital region. 
This testbed will also be an operational prototype of counter UAS 
technologies that can be deployed as an interim capability, as needed.
    Continued integration of UAS into the national airspace requires a 
layered security regime to protect the public from those who would 
misuse this technology, whether by recklessly flying near major 
airports and critical infrastructure, intentionally conducting 
surveillance or facilitating attacks. There are significant legal 
impediments and gaps in authorities related to the authorization to use 
certain technologies to detect, track and mitigate threats from small 
UAS. Legal constraints, such as the Pen Register Act, the Wiretap Act, 
and the Aircraft Disablement Statute, have been central to this 
discussion. Without statutory relief, departments and agencies are 
unable to develop and operate many types of CUAS technologies. Law 
enforcement officials remain constrained in their response to UAS 
threats, acting with conventional means only when there is a threat to 
human life.
    Finally, S&T has efforts to tailor CUAS technologies for operating 
components with urgent needs that cannot be met by commercially 
available solutions. This Quick Reaction capability enables rapid 
modification and proofing of technologies in order to provide new/
upgraded CUAS capabilities as required.
    Many challenges and issues associated with countering the domestic 
threat of UAS need to be addressed at the interagency level. As such, 
under the auspices of the National Security Council's Policy 
Coordination Committee, S&T is co-chairing the CUAS Technology Work 
Group (WG) with the White House Office of Science and Technology and 
co-chairing the Response WG with DOJ and DoD, while actively 
participating on the Legal WG chaired by DOJ. These WGs are working to 
coordinate and consolidate our government's efforts on CUAS to maximize 
effectiveness and efficiency.
    In addition, the Secret Service is actively engaged in the 
development of technical countermeasures designed to detect, identify, 
track and defeat unauthorized or hostile unmanned aircraft systems 
(UAS) operating within the National Airspace. Collectively, these 
efforts will provide the Secret Service with UAS detection and 
mitigation capabilities for permanent fixed site coverage in 
Washington, DC, as well as temporary deployments for protective sites 
outside of the National Capital Region. The fiscal year 2018 Budget 
includes $4.9 million for the Secret Service to continue these efforts.
    There are additional legal authorities the Department requires to 
better defend the public and certain Departmental facilities, 
installations, and operations against the threats posed by small UAS. 
Working with our interagency partners and the White House National 
Security Council, we have delivered to Congress an Administration-
approved, government-wide legislative proposal, ``Official Actions to 
Address Threats Posed by Unmanned Aircraft Systems to Public Safety or 
Homeland Security,'' that would provide additional Counter-UAS 
authorities to DHS and other Federal departments/agencies to legally 
engage and mitigate small UAS threats in the National Airspace System.
    Some of the most promising technical countermeasures for detecting 
and mitigating UAS may be construed to be illegal under certain laws 
that were passed when UAS were unforeseen. These laws include statutes 
governing electronic communications, access to protected computers, and 
interference with civil aircraft (UAS are defined as aircraft under the 
FAA Modernization and Reform Act of 2012 (Public Law 112-095)). 
Potential liability under such laws restricts development, testing, 
evaluation, and operational use of technical countermeasures that could 
address the unique public safety and homeland security threats posed by 
UAS while minimizing collateral risk.
    Question. Mr. Secretary, the budget proposes reducing funding for 
Science and Technology by $154 million or about 20 percent. Chemical 
and air cargo research areas would be hit particularly hard. So much of 
what the Department does to keep us safe is dependent on our 
maintaining a technical advantage over our adversaries. Investments in 
research and development today can make the Department more effective 
and more efficient in future years.
    What is your level confidence that the amount requested for Science 
and Technology is sufficient for us to maintain a technical advantage 
over those who seek to do us harm?
    While the Department can leverage research and development 
investments from other agencies, do you need to maintain a certain 
level of science and technology brainpower within the Department so 
that you can keep up with what solutions are out there and how best to 
adapt them to your missions?
    Answer. The budget funds high-impact Research and Development for 
Administration and Departmental priorities in border security, 
counterterrorism, explosives, cyber, and first responder/disaster 
resilience, while minimizing reductions to biodefense. S&T prioritized 
within available resources based on the Department's Integrated Product 
Team process, S&T's internal Portfolio Analysis and Review, and the 
Administration's immigration and border security priorities. S&T will 
continue to leverage R&D from other government agencies and the private 
sector to realize the highest return on investment in current and new 
technologies for the Homeland Security Enterprise.
    Question. Mr. Secretary, the Department is tasked with crafting a 
plan to identify and intercept nuclear or ``dirty bomb'' threats at 
America's borders. The nuclear and radiation detection equipment 
employed by the Department's agencies to do this work is purchased and 
tested by the Domestic Nuclear Detection Office (DNDO). DNDO plans to 
purchase approximately 200 new radiation portal monitors despite a 
recent Government Accountability Office finding that the current 
equipment is operating beyond its 10-year lifespan.
    Why continue with the Radiation Portal Monitor replacement when the 
Government Accountability Office says the ones you have are working?
    Answer. The GAO finding was based on DHS analysis that indicated 
the Radiation Portal Monitor (RPM) service life may be longer than 
previously estimated, assuming the availability of spare parts and the 
continuing maintenance program. This is reflected in our long-term 
sustainment and recapitalization strategy, and DHS continues to 
maintain the deployed RPM fleet to over 99 percent availability through 
a robust maintenance program. This recap strategy reflects DNDO's 
projection that additional RPMs will be needed for future port 
expansions and reconfigurations, which drives the need for the RPM 
Replacement Program to field next generation RPMs as soon as possible. 
Additionally, next generation RPMs are required to reduce the number of 
false alarms in the field so that remote operations can be implemented. 
DHS will need to recapitalize the legacy fleet of well over 1,300 
operational RPMs no later than 2030--a recapitalization activity that 
will take over a decade to accomplish. The ongoing RPM Replacement 
Program is required now in order to support this strategy.
              Questions Submitted by Senator Thad Cochran
    Question. As you are well aware from your previous position as 
Commander of U.S. Southern Command to now as Secretary of Homeland 
Security, the National Security Cutter fleet has been the most 
effective national security asset in protecting the nation's coasts and 
waterways from terrorism, human trafficking, drug smuggling and other 
maritime threats. Just last week the Coast Guard Cutter Hamilton 
offloaded 18.5 tons of cocaine, with a street value of $500 million. 
This cocaine never made it to its intended location--our streets.
    If funds were provided for additional National Security Cutters, do 
you believe the Coast Guard and your Department could put them to good 
use? Do you believe the National Security Cutter program provides added 
capability and reach for the Coast Guard?
    Answer. NSCs are the most capable assets in the Coast Guard fleet, 
and they are performing extremely well in the fight against 
transnational crime.
    Question. Because the Department is still relatively young and 
doesn't have a robust laboratory network, cooperation with universities 
and existing Federal laboratories and research centers is critical. The 
U.S. Army Engineer Research and Development Center (ERDC) in Vicksburg, 
Mississippi, has supported the research requirements of the Department 
over the years, most notably in the areas of border security 
technologies and critical infrastructure protection.
    Will you continue to use to the ERDC to help ensure the Department 
is producing new solutions to face the ever-changing threats to our 
nation's security? What are your concerns and priorities regarding 
critical infrastructure protection?
    Answer. Over the years, S&T has benefited from the ability to 
leverage the world-class engineering and material science expertise 
available at ERDC. This cooperative relationship has led to 
enhancements in understanding blast effects as they relate to guidance 
for protective measures, the creation of advanced materials to meet 
unique engineering requirements, and insights into consequence modeling 
related to natural hazards.
    ERDC is an important and long-standing partner with the DHS S&T 
Office of University Programs (OUP) and the S&T OUP-funded Coastal 
Resilience Center of Excellence, led by the University of North 
Carolina at Chapel Hill in partnership with Jackson State University 
(JSU) in Jackson, MS. ERDC representatives sit on OUP's Federal Board 
of Directors for the Center and are engaged with several Center 
projects, including a successful Coastal and Computational Engineering 
doctoral program at JSU, research on monitoring levee health, and 
development of a method to incorporate rainfall into storm surge 
estimates. In addition, ERDC and JSU have a Cooperative Research and 
Development Agreement to determine reasonable and effective levels of 
protection for a hurricane surge barrier that would serve the entire 
Galveston Bay region of Texas. Work by the ERDC/JSU partnership has 
been instrumental in establishing the physical and hydrodynamic 
boundaries for the Galveston Bay protection problem and in developing a 
detailed understanding of how hurricanes interact with the complex bay 
system and its surrounding area. The U.S. Army Corps of Engineers' 
Galveston District is using results of the ERDC/JSU work in a 
federally-funded study that will produce an initial protection plan by 
mid-2018.
Note: In addition to ERDC and JSU, the barrier study team includes 
researchers from Texas A&M University at Galveston, the University of 
Houston and the Technical University at Delft, The Netherlands, plus 
representatives from the Texas General Land Office and the Galveston 
District of the US Army Corps of Engineers. More recently, researchers 
from Rice University and the consulting firm ARCADIS have joined.
    Critical infrastructure protection priorities, as they relate to 
the investment of Federal funds to meet national needs in critical 
infrastructure security and resilience, were identified as part of the 
National Infrastructure Protection Plan development process. Two years 
of work with the sector partnership and departments and agencies (D/As) 
with equities in critical infrastructure resulted in the release of the 
National Critical Infrastructure Security and Resilience Research and 
Development Plan. The Plan identified five priority areas:
  --Develop the foundational understanding of critical infrastructure 
        systems and systems dynamics;
  --Develop integrated and scalable risk assessment and management 
        approaches;
  --Develop integrated and proactive capabilities, technologies, and 
        methods to support secure and resilient infrastructure;
  --Harness the power of data sciences to create unified, integrated 
        situational awareness and to understand consequences of action;
  --Build a crosscutting culture of CISR R&D collaboration.
    On behalf of DHS, NPPD together with the Department of Energy is 
leading interagency coordination of the implementation of the Plan. The 
National CISR R&D Implementation Roadmap, released in December 2015, 
further identifies five challenge areas to focus near- and mid-term 
Federal R&D activities in support of critical infrastructure security 
and resilience. The R&D challenge areas are:
  --Understanding Interdependencies in Infrastructure Vulnerabilities 
        for Improved Decision Making
  --Position, Navigation, and Timing Support Functions
  --Resilient, Secure, and Modernized Water and Wastewater 
        Infrastructure Systems Capable of Integration with Legacy 
        Systems
  --Next-Generation Building Materials and Applications for 
        Transportation Infrastructure Systems
  --Resilient and Secure Energy Delivery Systems
    In addition to NPPD's efforts, S&T Office of University Programs 
works with DHS Components through its Centers of Excellence Program to 
identify and formulate long term research challenges focused on 
protecting the Nation's infrastructure. Through DHS' Critical 
Infrastructure Resilience Institute (CIRI), DHS works with national and 
state-level owners and operators of critical infrastructure; national 
and state emergency-response organizations; scientists from academic 
institutions, national laboratories and private industry; and relevant 
state and Federal agencies with an interest in critical infrastructure 
resilience to develop approaches that investigate methods to protect 
cyber physical systems and the most promising ways to develop the 
business case for resilience. CIRI's research themes include: 
resilience insurance, macro and micro industrial supply chains, 
infrastructure dependencies and interdependences, and next generation 
resilient communications. Center of Excellence (COE) research themes 
are based on long-term, enduring DHS mission areas, law, Presidential 
Administration's guidance, Presidential Directives, National 
Strategies, DHS Quadrennial Homeland Security Reviews, Integrated 
Product Team gaps, other scholarly studies. Individual projects within 
each of the COE research themes are formulated through iterative and 
systematic engagement with DHS Components and undergo thorough 
scientific and strategic reviews.
         Questions Submitted by Senator Senator Lisa Murkowski
    Question. Since I asked about H2B visas during the hearing on May 
25th hearing I've seen no movement by the agency to address the issue. 
I will ask again. Do you plan to approve additional H2B visa processing 
this year so Alaskan fish processors can effectively operate this 
summer? If so, when, why, what is the plan this year and what is your 
plan going forward to ensure H2B visas are distributed at intervals 
throughout the year to avoid negative impacts on seasonal industries 
that begin later in the year?
    Answer. The Department of Homeland Security (DHS) is in the process 
of working with the Department of Labor (DOL) regarding the numerical 
increase in the H-2B temporary, nonagricultural foreign workers for the 
remainder of fiscal year 2017. The Secretary's decision to increase the 
H-2B cap cannot be made lightly, and must be carefully weighed against 
other factors, including whether American workers will be harmed by any 
increase. The Department hopes to announce a decision in the near 
future.
    In accordance with the statutory requirement in 8 U.S.C. 
Sec. 1184(g)(10), H-2B visas are currently evenly distributed at both 
halves of the fiscal year (i.e. 33,000 for workers who begin employment 
in the first half of the fiscal year (October 1--March 31) and 33,000 
for workers who begin employment in the second half of the fiscal year 
(April 1--September 30)). If DHS determines that further Congressional 
action is not necessary to allow it to distribute the visas more 
frequently than twice a year, it will consider the impact of more 
frequent distribution on American workers and businesses as well as on 
agency operations.
    Question. As you know, Alaska has a fleet of nine UH-60T 
helicopters which are critical SAR assets for our state. My 
understanding is that this fleet of helicopters is expected to last 
until roughly the 2035-40 timeframe.
    How does the Coast Guard expect to keep the fleet flying that long, 
especially, since I believe the average airframe has over 15,000 hours 
on it?
    Given the competing funding priorities the Coast Guard is currently 
facing, where does the maintenance of this critical UH-60T helicopter 
fleet fit in?
    I understand the Coast Guard has the possibility of inserting a new 
cabin which would zero-time the airframe. Is this is strategy you are 
actively pursuing?
    Will this save money versus buying new helicopters? Also, will this 
allow the fleet to continue flying for as long as they need to?
    Finally, I have heard there is some level of urgency in pursuing 
this new cabin insertion given the end of production for the Navy's MH-
60R fleet of helicopters. Is the Coast Guard moving quickly enough on 
this potential solution and if not, do you risk an increase in costs?
    Answer. The Coast Guard recognizes there may be potential value to 
leverage DoD's Future Vertical Lift effort as an option to replacing 
its current H-60 fleet, which will require extending the service life 
into the 2030s. The fiscal year 18 President's budget reflects our plan 
to begin a service life extension program (SLEP) to provide 10,000 
hours of additional service life (to 30,000 hours) on each airframe.
    The fiscal year 2018 President's budget includes the resources 
necessary to conduct required depot and unit maintenance on the MH-60T 
fleet. Purchasing new airframe hulls from the original equipment 
manufacturer (OEM) was considered as a life extension option during the 
market research stage, but further investigation into this proposal was 
discontinued due to cost, schedule and configuration issues. The SLEP 
will extend service life but does not obviate the eventual need for 
recapitalization.
              Questions Submitted by Senator John Kennedy
    Question. Thank you for confirming in your testimony that if DHS 
and CBP are violating the Jones Act, you will make certain to stop such 
violations. Note that in CBP's Customs Bulletin notice of January 18, 
2017 that proposed to revoke and modify a number of CBP letter rulings, 
CBP specifically admitted that these letter rulings are legally 
inconsistent with the Jones Act, citing numerous instances where 
certain holdings are ``contrary to the plain meaning of 46 U.S.C. 
Sec. 55102, as amended.'' For example, CBP noted that while pipeline 
repair is not covered by the Jones Act, the transportation of pipe and 
repair materials is. CBP was quite clear: ``[T]he holding [of a letter 
ruling regarding the transport of pipe and repair materials] is 
contrary to the plain meaning of 46 U.S.C. Sec. 55102, as amended. The 
statute does not state that if the activity the vessel is engaged in 
does not constitute coastwise trade then the transportation of the 
merchandise in order for the vessel to engage in such activity does not 
violate 46 U.S.C. Sec. 55102.'' In another example, CBP proposed to 
revoke language that purported to create a loophole for ``de minimus'' 
amounts of merchandise in the Jones Act. Specifically, the Notice 
stated: ``The foregoing holding is inconsistent with the plain language 
of 46 U.S.C. Sec. 55102 which includes 'valueless material' in its 
definition of merchandise.'' Again, I was pleased that you agree that 
when a Federal agency under your supervision admits that it has issued 
letter rulings that are violating a statute, it should not require 
extensive study to decide whether you should comply with the law.
    Irrespective of what process your department chooses to utilize to 
come into compliance with the law, by what date can you assure me that 
DHS and CBP will be in full compliance with the Jones Act?
    Answer. On May 10, 2017, U.S. Customs and Border Protection (CBP) 
posted a withdrawal of the January 2017 notice of proposed modification 
and revocation in the Customs Bulletin. We revoked the notice due to 
important operational concerns as evidenced by the more than 3000 
comments CBP received regarding the proposal. We determined that CBP 
should reconsider the procedural vehicle to address a topic of this 
operational scope, including potential rulemaking options under the 
Administrative Procedure Act or pursuit of legislative changes. This 
approach would allow CBP and interagency participants to more 
comprehensively assess the potentially wide array of impacts of such a 
proposal in a fully transparent process.
    Given that there has been no decision on the best procedural 
vehicle to address this topic, we are unable to give a precise timeline 
at this moment. For example, a rulemaking action--which includes the 
requirements to conduct a thorough impact analysis, obtain public 
comment, and complete the interagency review process--takes significant 
time, often years.
    We appreciate your concern in this matter of coastwise trade. We 
are mindful of the long history behind the subject matter of this 
notice. CBP remains committed to the sound administration of the 
Customs and related laws.
    Question. Louisiana has a very robust ports system. We have 16 
inland river ports, 6 deep-draft sea ports, which brings in more than 
500 million tons of cargo within the lower Mississippi annually, and we 
have 9 coastal energy ports. All of these ports provide more than 
400,000 jobs and $20 billion in personal earnings.
    How does the President's budget reflect the security of our ports 
and waterways within the United States and its Territories?
    Answer. America's economic prosperity is reliant on the safe, 
secure, and efficient flow of cargo through the Maritime Transportation 
System (MTS), which sees $4.5 trillion of economic activity annually. 
The Nation's maritime industry and the MTS face many challenges, 
including growing demands, a global industry-driven need to reduce 
shipping's environmental footprint, and the ever-increasing complexity 
of systems and technology.
    The Presidents' fiscal year 2018 budget supports a sustainment of 
Coast Guard marine safety and security programs that employ our unique 
capabilities to ensure a safe, secure, and environmentally sound MTS. 
The Coast Guard conducts the Ports, Waterways, and Coastal Security 
(PWCS) mission protecting people and property by preventing, 
disrupting, and responding to terrorist attacks, sabotage, espionage, 
or subversive acts. The Coast Guard executes the PWCS mission through a 
layered, security-in-depth concept of operations.
               Questions Submitted by Senator Jon Tester
    Question. After funding $772 million in the recently passed Omnibus 
appropriations bill for border security technology, facilities, and 
replacement of existing fencing, we are now presented with another 
large request for the southern border, including $1.6 billion for 74 
miles of border wall. Your fiscal year 2018 plan would cost taxpayers 
$21 million per mile. The Department must complete an analysis of 
alternatives to determine the most appropriate and effective solutions 
for security on the border, including a detailed cost-benefit analysis, 
and validated metrics on the impact of existing fencing.
    Will you submit such a plan in early August as required by the 
fiscal year 2017 Omnibus Appropriations Act and do you agree these are 
reasonable steps the American taxpayer expects you to take before 
additional funding should be considered?
    The Department is currently conducting a competition to assess wall 
prototypes. Will any of the prototypes be technology based, which could 
be a more cost effective solution?
    Answer. CBP plans to submit an alternatives analysis to meet the 
requirement in the fiscal year 2017 Omnibus Appropriations Act. This 
analysis is currently under review within CBP. Furthermore, CBP is 
following the DHS Acquisition process for each segment of new wall to 
validate the need, means and methods, cost and appropriate oversight of 
the project, of which an alternatives analysis is also a requirement.
    The CBP solicitation sought proposals for both solid concrete 
border wall and other than solid concrete border wall from qualified 
contractors utilizing innovative approaches to meet or exceed CBP's 
performance requirements. Prototypes could include technology 
components. Evaluations are currently ongoing.
    Question. We want to ensure that whatever is built on the border 
vis-`-vis security structures--if any--respects the rights of current 
landowners. Can you confirm that nothing in the recently-passed DHS 
appropriations Act interferes with (or facilitates) any changes in 
landowners rights on the border and what does your fiscal year 2018 
request assume with regard to eminent domain?
    Answer. The fiscal year 2017 DHS Appropriations Act provided 
funding for various border infrastructure and border security 
initiatives. The Department cannot confirm that landowner rights will 
remain the same in implementing these initiatives as CBP will be 
acquiring property from landowners for some of these initiatives, 
including towers, patrol and border access roads, and completion of 
gate installation. DHS will follow the appropriate legal processes for 
any real estate acquisition it pursues.
    The President's fiscal year 2018 Budget seeks funding for 
additional border infrastructure and border security initiatives. The 
Department will need to acquire property for these initiatives. When 
DHS/CBP needs property for projects, it is always the Department's 
preference to acquire private property through voluntary sale. However, 
there are situations where that may not be possible. For instance, past 
practice has shown that in some locations, it is impossible to 
determine the rightful owner/owners of the property based on the 
available property records and the Government must file a condemnation 
action to acquire the property.
    Question. The recently passed omnibus appropriations bill includes 
language directing the Border Patrol to maintain a minimum staffing 
presence of 2,212 agents on the northern border. It also expects that 
number to increase as warranted due to the threat and the growth in the 
overall size of the Border Patrol.
    Mr. Secretary, do you agree that, while they may be different in 
scope and type, there are real threats facing this country on the 
northern border?
    Will you commit to working with this subcommittee to ensure the 
northern border gets the resources--in terms of people and technology--
required to protect this part of the country?
    Answer. Yes, while the large volume of legitimate travel across the 
northern border and the long stretches of difficult to patrol terrain 
between ports of entry provide potential opportunities for undetected 
entry of individuals who may pose a national security risk, encounters 
with individuals associated with transnational crime or terrorism 
remain infrequent. While potential terrorist entry to the United States 
via the northern border is a concern, the most persistent threat to 
U.S. public safety continues to be the bi-directional flow of drugs. 
Transnational criminal organizations (TCOs) continually adapt their 
drug production, smuggling methods and routes to avoid detection by 
U.S. and Canadian law enforcement and to meet consumer demands in both 
countries.
    The Department, specifically CBP and the U.S. Border Patrol (USBP), 
is grateful for the strong Congressional support yielding $25 million 
for USBP's Operational Mobility Program. This vital pilot program 
provides the relocation resources necessary to fulfill the Northern 
Border staffing requirements. Similarly, Congressional support is 
helping improve our vehicle fleet across all borders.
    Question. On the heels of the Paris attacks and the incident in San 
Bernardino, Congress provided $10 million in grant funding in December, 
2015-17 months ago--for communities, nonprofits, and experts to find 
explore ways to counter violent extremism. What has your review of 
these intended grants found?
    Is it your intent to make grant awards consistent with 
congressional direction and when?
    Answer. The Department completed its review of the grants, which 
confirmed the goals and approach of the grant program did not require 
any changes to the program's nature or scope. Consistent with the 
authority provided by the Notice of Funding Opportunity, some changes 
in award selections were made from the announcement in January to 
accommodate former Secretary Kelly's priorities to fund programs that 
support law enforcement, demonstrate effectiveness, and are sustainable 
after the period of performance ends.
    Question. There have been numerous reports about ISIS' struggles on 
the battlefield resulting in an exodus of foreign fighters returning to 
their countries of origin. A good majority of these are European 
citizens with valid passports. In April, Secretary Kelly, you suggested 
that we ``start looking very hard at that visa waiver program.''
    What does this mean? What modifications to the visa waiver program 
are you specifically proposing? Do you expect that any modifications we 
might make would be matched by our VWP partners overseas?
    Answer. The Administration is dedicated to protecting the American 
people and the Homeland. The Department, along with its interagency 
partners, is assessing carefully the security standards of its various 
programs--including the Visa Waiver Program (VWP)--to identify 
opportunities for enhancing the vetting and screening of travelers and 
certain immigration applicants, commensurate with the evolving threat 
environment.
    The VWP requires designated countries to meet stringent security 
requirements defined in U.S. law, thereby ensuring such countries are 
among our strongest security partners and, in turn, enhancing U.S. 
national security. DHS enforces these requirements by conducting 
regular continuing designation reviews, continuously monitoring each 
VWP country between designation reviews, and taking corrective measures 
(as necessary and appropriate) to maintain compliance. Should a 
country's inclusion in the VWP Program pose an imminent threat to U.S. 
national security interests, DHS would suspend or terminate that 
country from the Program.
    DHS evaluates the security of the VWP on an ongoing basis to ensure 
it addresses the constantly evolving threat environment. In 2015, DHS 
worked with Congress to strengthen the VWP through legislation 
introducing a series of new requirements to combat the threat of 
terrorist travel, culminating in the Visa Waiver Program Improvement 
and Terrorist Travel Prevention Act of 2015. DHS is working with each 
of its international partners to implement these security enhancements, 
and has communicated that lack of full implementation will result in 
compliance action. So far, this engagement has resulted in notable 
progress, particularly in the area of increased information sharing 
about terrorists, serious criminals, and irregular migrants, as well as 
improved reporting of lost and stolen passport information.
    The Department continuously looks for new ways to build on existing 
partnerships with its allies to respond to current and emerging 
threats. Moreover, as part of its reviews of VWP countries, DHS 
assesses countries' capabilities and recommends improvements based upon 
the enhanced security focus of the Program and best practices therein. 
In part due to DHS's urging, European partner countries and the 
European Union have taken significant steps to improve counterterrorism 
and border security capabilities in Europe over the past year, to 
include: enhancing border controls to require systematic database 
checks of all persons crossing Europe's external Schengen borders 
(effective April 2017); passing the EU Passenger Name Record (PNR) 
Directive in April 2016 (to be implemented by May 2018); creating a new 
European Border and Coast Guard Agency (effective October 2016); and 
improving vetting programs through greater database interoperability.
    In support of these advancements by VWP partners, the Department 
has offered its expertise and technical assistance to assist partners 
in developing passenger data collection and analysis capabilities, and 
has conducted numerous workshops sharing best practices and 
collaborating on travel trends and intelligence-driven targeting. The 
Department is also working with a number of VWP partners to leverage 
both existing and new information sharing agreements to cooperate 
directly on vetting priority travelers against our respective 
immigration, law enforcement and national security data at a system-to-
system level.
    Question. Nearly a year has passed since the GAO released a report 
saying that DHS should 1) specify timeframes for working with VWP 
countries in order to implement information-sharing agreements, and 2) 
take steps to improve its timeliness in reporting to Congress on 
whether VWP countries should continue in the program.
    Has DHS specified timeframes for working with VWP countries on the 
implementation of information sharing agreements? Has DHS taken steps 
to improve its timeliness in reporting to Congress on whether VWP 
countries should continue in the program?
    Answer. DHS is working with each of its VWP partners to implement 
the security enhancements mandated by the Visa Waiver Program 
Improvement and Terrorist Travel Prevention Act of 2015, and has 
communicated that the failure to fully implement the enhancements will 
result in compliance action. Following GAO's recommendation, DHS 
engaged with all affected countries on the need to meet information 
sharing requirements. While each VWP country faces unique challenges, 
this engagement resulted in notable progress. For example, following 
focused engagement by DHS, five countries ratified the Prevent and 
Combating Serious Crime (PCSC) agreement.\1\ Of the three outstanding 
countries, all three are pursuing legislative changes to enable 
ratification of the agreement, one of which is expected to ratify the 
agreement in 2017. DHS saw similar success with focused engagement on 
sharing information under the Homeland Security Presidential Directive 
(HSPD-6) arrangement. Since 2016, seven additional VWP countries began 
sharing known and suspected terrorist (KST) identity information under 
their HSPD-6 arrangements. DHS continues to prioritize engagement with 
the remaining four VWP countries that need to share; however, based on 
assessments by members of the U.S. Intelligence Community, it is likely 
these four countries may have little to no relevant information to 
share. DHS will continue to work closely with countries that still need 
to fully implement information sharing requirements.
---------------------------------------------------------------------------
    \1\ Preventing and Combating Serious Crime (PCSC) Agreements enable 
the automated exchange of information relevant to the prevention and 
detection of serious crimes (i.e., felony offenses) and terrorism. PCSC 
agreements are negotiated and implemented jointly by DHS and the 
Federal Bureau of Investigation.
---------------------------------------------------------------------------
    In April 2017, DHS met with GAO to communicate DHS's intent to 
become current on reporting requirements by April 2018 and its approach 
to ensuring timely reporting moving forward. This approach included a 
revised schedule of reporting, better balancing of portfolios among DHS 
VWP staff members, and an increase in staffing related to VWP 
activities. GAO responded positively to the proposed way forward. In 
2017 to date, the Department has generated reports at a steady pace: 
DHS submitted a report for 12 countries in January, a report for Greece 
in March, a report for Chile in June, and anticipates another report 
for five countries in the near term.
             Questions Submitted by Senator Jeanne Shaheen
    Question. It appears that, despite Federal court rulings against 
the President's Executive Orders, the U.S. Citizenship and Immigration 
Service's Refugee Corps is not conducting regular interviews of refugee 
applicants. While some reports indicate that a very small number of 
interviews may have occurred, I am hearing that, by and large, refugee 
interviews have stopped. I have also heard reports that DHS is not re-
running security checks for previously-approved refugees whose 
clearances have expired because of governmental processing delays and 
the reduced number of weekly refugee arrivals. As a result, many 
refugees who have already been approved are facing a domino effect of 
expiring validity periods, since each step in the security check 
process is time limited. I am particularly concerned about these 
reports in light of both the current Federal court injunction 
preventing implementation of the refugee portion of the President's 
executive order and the clear Congressional intent that refugee 
resettlement is to be maintained, as demonstrated by the level funding 
appropriated for the program for this fiscal year. What is the 
authorization for these Departmental changes, when does the Department 
expect to resume overseas interviews and how does the Department plan 
to address the problem of expiring clearances for refugees who have 
been impacted by the Administration's decisions?
    Answer. With respect to Circuit Ride Scheduling, on January 27, 
2017, Executive Order 13769 was issued, and Section 5(d) lowered the 
refugee admissions ceiling for fiscal year 2017 to 50,000. After 
consulting with the State Department, USCIS assessed that it was not 
necessary to interview large numbers of refugee applicants in order to 
meet the new ceiling, in light of (i) fiscal year admissions to date 
and (ii) the number of cases that had already been interviewed by USCIS 
and conditionally approved for resettlement, but had not yet traveled 
to the United States. Consequently, USCIS canceled most refugee circuit 
rides that were scheduled for the second quarter of the fiscal year 
(January-March). USCIS, however, did not completely suspend its 
international refugee processing circuit rides. A reduced schedule of 
refugee processing circuit rides and refugee interviews at USCIS's 
international field offices continued in the second and third quarters.
    On March 6, 2017, Executive Order 13780 was issued with an 
effective date of March 16, 2017, and it revoked Executive Order 13769 
on its effective date. However, Section 6 of Executive Order 13780--
which relates to refugee resettlement--was enjoined on March 15, 2017, 
by the U.S. District Court for the District of Hawaii. Consequently, 
the ceiling for refugee admissions reverted to 110,000, as established 
in the Presidential Determination on Refugee Admissions for fiscal year 
2017. On June 26, 2017, however, the Supreme Court issued an order 
staying the preliminary injunction in part. With respect to refugees, 
the Court stayed the preliminary injunction insofar as it precluded 
enforcement of the Executive Order with respect to individuals seeking 
admission as refugees who cannot ``credibly claim a bona fide 
relationship with a person or entity in the United States.''
    USCIS, in conjunction with the Department of State, is in the 
process of planning for Quarter 4 circuit rides, while continuing to 
support the Asylum Division's growing caseloads. USCIS is also 
interviewing refugee applicants in certain international offices. These 
efforts are being arranged in compliance with the Executive Order 
injunction and in accordance with USCIS priorities.
    Regarding Security Checks, USCIS defers to the Department of State 
regarding re-requesting certain security checks after DHS's conditional 
approval. No case will be finally approved until all security checks 
for all case members clear.
    Security screening for refugee applicants is a shared 
responsibility across multiple agencies and departments. It includes 
both biometric and biographic checks at multiple stages during the 
process, both before a refugee's departure to the United States and 
upon his or her arrival in the United States. Some security checks are 
recurrent meaning that they do not expire and do not need to be re-
requested, since they are refreshed with any new information 
automatically--while others do expire and would therefore need to be 
re-submitted, depending on the nature of the check.
    The Department of State's Resettlement Support Centers (RSC) 
overseas initiate Consular Lookout and Support System (CLASS) name 
checks for all refugee applicants at the time the applicants are 
prescreened. The RSCs also initiate Security Advisory Opinion (SAO) 
name checks for certain refugee applicants at prescreening. The RSCs 
are responsible for monitoring these checks and for re-requesting these 
checks when they expire or are about to expire.
    The Interagency Check (IAC) screens biographic data against a wider 
range of agency holdings for refugee applicants within designated age 
ranges. These checks are recurrent and they do not expire, so they do 
not need to be re-requested.
    USCIS staff collect fingerprints from refugee applicants prior to 
or at time of the USCIS interview and initiate biometric screenings. An 
applicant does not need to be fingerprinted again if the check expires; 
fingerprints may be resubmitted electronically.
    We defer to the Department of State regarding the potential 
expiration of medical clearances and sponsorship assurances, as both 
fall under its purview.
    Question. I, along with a bipartisan group of 16 other Senators, 
sent a letter to you and Secretary Tillerson on May 4 asking similar 
and other important questions about the current operating status of the 
U.S. Refugee Admissions Program. When can we expect a response from 
your agency to this letter?
    Answer. The response is currently under interagency review and will 
be provided as soon as possible.
              Questions Submitted by Senator Patrick Leahy
    Question. On the campaign trail, President Trump promised his 
supporters ``a total and complete shutdown of Muslims entering the 
United States.'' Since taking office, President Trump has twice tried 
to block individuals from six Muslim-majority countries from entering 
our country. It may be hard to believe, but this has had a real impact 
on Vermont's economy. One Vermonter recently wrote to me about the 
Toronto School District's ban on student trips to the United States. 
This Vermonter writes, ``Vermont relies heavily on Canadian student 
destination trips as a driver of the more than $3 billion that the 
tourism sector generate within the state.'' Other Vermonters--inn 
keepers, resort operators, restaurant owners--have contacted me about 
cancelations they have received from anticipated Canadian visitors who 
no longer want to spend their dollars in the United States. Yet the 
President claims his blanket travel ban is necessary for our national 
security because individuals from certain countries pose too great a 
risk of terrorism.
    Is citizenship alone--without any additional evidence--a reliable 
indicator of the terrorist threat?
    We have already heard from your Department on this important 
question. A recent assessment from the Office of Intelligence and 
Analysis concluded that citizenship is unlikely to be a reliable 
indicator of potential terrorist activity. I asked then-Director Comey 
this same question earlier this month. He agreed with me that 
citizenship is not a reliable indicator. We need focus on individuals, 
and their own actions, not simply citizenship. I would hope that this 
Administration would listen to these national security experts before 
trying to follow through on any more of the President's campaign 
promises.
    Answer. The Department is willing to provide a classified briefing 
on the terror threat to the United States emanating from certain 
countries, as well as the Administration's efforts to take a risk-
based, intelligence-driven approach to keeping known and suspected 
terrorists out of the United States, while facilitating lawful trade 
and travel.
    Question. Lots of attention is paid to the Southern Border, where 
this budget proposes to place billions of dollars in resources. I fear 
that will come at the expense of our Northern Border. Not a week goes 
by without a Vermonter or Vermont business letting me know about long 
delays at Vermont's Highgate Port of Entry. Wait times are now 
impacting business and tourism. Since 2009, CBP in Vermont has lost 
roughly 25 percent of its staff at ports of entry, making it harder for 
CBP to do its job. The challenging mission of our CBP officers is only 
compounded when they have to handle long lines and irate travelers. 
Secretary Kelly, since the beginning of April, I have been asking CBP 
to brief my staff about how they plan to improve the situation at 
Highgate. Finally this week, I assume in advance of your appearance 
here, they have scheduled it in June. I need your commitment to 
dedicate the needed resources--both in staffing and infrastructure--to 
help CBP meet these needs at Vermont's ports of entry, particularly 
Highgate.
    We need more help, and more officers to staff the Northern border. 
For example, Canadians use a camera system to process the NEXUS lane as 
opposed to a staffed booth. Has DHS or CBP considered the camera system 
as a solution to U.S.-inbound NEXUS back-ups? If not, what systems have 
you explored to help alleviate travel wait times at the Northern 
Border?
    What new steps are DHS and CBP taking to increase and retain CBP 
staffing on the Northern Border?
    Answer. Since fiscal year 2007, the number of CBPOs in Vermont has 
increased by 46 to include new officers coming on board in June.

  --fiscal year 2007-251 CBPOs
  --fiscal year 2017-289 CBPOs (plus 8 June enter on duty)

    Since 2007, the number of CBPOs in Highgate Springs has increased 
by 13 to include new officers coming on board in June.

  --fiscal year 2007-119 CBPOs
  --fiscal year 2017-127 CBPOs (plus 5 of the 8 June entry on duty)

    Overall traffic from fiscal year 2011 through fiscal year 2016 has 
fallen by -9.2 percent. Privately owned vehicles (POV) have dropped by 
-11.8 percent while commercially operated vehicle (COV) traffic has 
increased by 7.9 percent, which is slightly below Northern Border 
averages. In contrast, overall U.S.-wide vehicle volume increased by 
11.8 percent during the same period. POVs rose by 11.5 percent while 
COVs increased by 14.3 percent.

                         Change in Vehicle Volume, Fiscal Year 2011 to Fiscal Year 2016
----------------------------------------------------------------------------------------------------------------
                             Region                                     POV             COV            TOTAL
----------------------------------------------------------------------------------------------------------------
Vermont.........................................................          -11.9%            7.9%           -9.2%
Northern Border.................................................          -11.7%            8.4%           -8.6%
United States...................................................           11.5%           14.3%           11.8%
----------------------------------------------------------------------------------------------------------------


    Wait times at Vermont's two major crossings--Highgate 
Springs (I-89) and Derby Line (I-91)--are consistent with 
locations having similar vehicle workloads and much better than 
the high-volume crossings that receive the bulk of the vehicle 
traffic entering the U.S. (the 16 crossings with 2,000,000 or 
more vehicles account for 60.4 percent of all traffic; the 
other 152 crossings account for the rest).

                                         Wait Times, Selected Crossings
----------------------------------------------------------------------------------------------------------------
                     Crossing                                  Volume              Avg Wait Time  Peak Wait Time
----------------------------------------------------------------------------------------------------------------
Columbus, NM......................................                       342,037             4.6             6.6
Derby Line, VT....................................                       322,325             4.2             6.1
Highgate Springs, VT..............................                       490,453             7.1            12.4
Lynden, WA........................................                       535,520             6.5            10.6
Rio Grande City, TX...............................                       383,983             5.3            13.4
Sweetgrass, MT....................................                       323,431             9.2            23.1
----------------------------------------------------------------------------------------------------------------


    CBP's vision to reengineer the land border includes 
utilizing biometrics as a transformative agent in improving 
security, while facilitating legitimate travel. CBP is 
conducting studies to identify viable technology to address 
land border crossings utilizing facial recognition in both the 
cargo and passenger vehicle environments to identify and 
facilitate the traveler inspection.
    In order to facilitate cargo inspections, CBP now offers 
the ability for truckers to pay inspection fees online, in 
advance of arriving at the port. Carriers or their agents are 
able to make single-crossing user fee online payments through 
the Decal/Transponder Online Procurement System (DTOPS) 
website. The mobile-friendly DTOPS website design allows users 
to pay online using their smartphones. Paying the single-
crossing user fee online prior to arriving at the border 
reduces wait times. Removing the cash/credit card payment 
process from primary inspection has enabled CBP officers to 
process vehicles faster. Online payments also enable CBP port 
management to optimize resources to facilitate trade and ensure 
the security of international travelers.
    CBP is deploying mobile technology to enable CBP Officers 
at primary inspection to share referral information with 
Officers in secondary inspection in real time. Doing so 
eliminates the time consuming practice of hand writing referral 
slips and escorting the vehicle to the secondary inspection 
area. Initial results show a reduction of over 50 percent in 
both referral and close out times as well as improving Officer 
safety through increased situational awareness and the 
availability of information before vehicles arrive in 
secondary. Highgate Springs is scheduled to receive this 
technology in July 2017.
    The Department is taking an integrated, holistic approach 
to recruitment, hiring, and retention across CBP, including key 
areas along the northern border.
    In fiscal year 2017, CBP has held or participated in more 
than 560 recruitment events across northern border states. In 
the last 3 months alone, CBP recruiters have participated in 
nine events throughout the state of Vermont, including schools 
such as the University of Vermont, Lyndon State College, 
Norwich University, and Missisquoi Valley High School. We have 
also collaborated with several state recruitment organizations, 
including the Vermont Resource Career Center and Vermont 
Recruiters Association. While 95 percent of the authorized CBPO 
positions on the northern border were filled as of May 13, 
2017, there are key ports and stations--not only in Vermont, 
but also Maine, Minnesota, Montana, and North Dakota--that 
could benefit from greater flexibility in CBP's ability to use 
recruitment and retention incentives for current employees.
    Among other things, since August 2015, CBP has included in 
its officer entry-level vacancy announcement a recruitment 
incentive offer in certain northern border locations to attract 
applicants for CBP officer positions in locations that are 
experiencing difficulties attracting applicants and achieving 
their authorized staffing levels. Recruitment incentives for 
entry-level CBP officers include the following northern border 
locations: Raymond, Montana; Pembina and Portal, North Dakota; 
Jackman/Coburn Gore, Maine; Massena, New York; and Oroville, 
Washington. CBP is pursuing recruitment incentives for 
Sweetgrass, Montana; Houlton, Maine; and Norton and Beecher 
Falls, Vermont. Relocation incentives are available for 
positions that agencies determine to be likely difficult to 
fill; these relocation incentives have primarily been used by 
OFO for northern border hard-to-fill locations. In addition, 
CBP's request for a Special Salary Rate for CBPO positions in 
Portal, North Dakota was recently approved by OPM, which will 
allow for a 40-percent supplement in one of our hardest to fill 
locations. Finally, in regards to retention, CBP is in the 
process of developing a mobility program for USBP to offer more 
flexibilities to move to various key geographic areas. Internal 
and external exit surveys of BPAs indicate the inability to 
relocate is a key contributing factor in their decision to 
depart. This is especially true of mid-career BPAs who feel 
there is no opportunity to either relocate to a more desirable 
location or advance from their current position.
    Question. The President's budget proposes the addition of 
1500 new CBP and ICE agents at a time when border crossings are 
declining. Against this backdrop, this administration has 
abandoned the practices of both the Obama and Bush 
administrations in prioritizing for deportation the people with 
serious criminal records. Indeed this administration seems 
intent on driving up deportation numbers indiscriminately--
including families who have been here for decades, people with 
no criminal records, and even Dreamers. In the first 100 days 
of the new Administration, arrests of individuals with no 
criminal convictions increased by 157 percent. This not only 
drives immigrants into the shadows and tears families apart, it 
is a waste of time and resources that should be spent on more 
important priorities.
    Secretary Kelly, why do we need a spike in CBP and ICE 
agents when border crossings are going down? How can you 
justify this increase in agents at taxpayer expense at a time 
when the Department of Homeland Security is struggling to fill 
the positions it has? Couldn't these resources be better spent 
on some of the programs that were cut in Trump's budget, like 
education or job training programs?
    Answer. ICE officers conduct interior enforcement in 
addition to the removal of aliens apprehended at or near the 
border. Interior enforcement operations focus on aliens that 
are public safety and national security threats, including 
criminal aliens and gang members. The necessity of interior 
enforcement operations is not predicated on volume of recently 
arriving aliens who unlawfully enter the United States.
    Achieving complete operational control cannot occur in a 
single fiscal year, so it is still necessary to employ a risk-
based approach in prioritizing and addressing our most serious 
threats annually. Border Patrol agents are a vital component to 
achieving operational control.
    To enforce immigration laws effectively in the interior of 
the United States in accordance with the President's 
directives, additional ICE agents and officers are necessary. 
ICE is currently implementing a plan to improve efficiencies in 
the hiring process and to aggressively recruit qualified 
candidates. Those hired pursuant to the President's direction 
under the executive order will focus on both civil and criminal 
immigration enforcement. Additional personnel will be hired to 
carry out support functions of the executive order.
    As the Nation's largest Federal law enforcement 
organization, CBP faces a number of challenges in recruiting 
and retaining well-qualified employees. This is not a 
phenomenon unique to CBP as other Federal, state, and local law 
enforcement organizations must address similar challenges. To 
overcome these challenges, CBP will continue to work 
aggressively to implement a multifaceted recruitment strategy 
and execute large-scale improvements in our processes and 
capabilities. CBP is working on a range of incentives and 
mobility options to address the concerns of the CBP workforce. 
Research has indicated that a large number of staff leave the 
agency for other jobs based on location. The fiscal year 2018 
budget includes $30 million ($25 million for Border Patrol and 
$5 million for Air and Marine Operations) to support 
operational mobility, developmental assignments, and leadership 
relocations. Implementing a stable relocation program for the 
CBP workforce will help meet operational requirements and help 
to alleviate the lack of mobility significantly contributing to 
increased attrition across the workforce.
    As is always the case when preparing budgets, difficult 
choices have to be made. The President's fiscal year 2018 
budget is the result of a careful prioritization among many 
worthy programs across government and sets priorities to 
materially increase resources for border security, immigration 
enforcement, and law enforcement. The Department is 
appreciative that the DHS fiscal year 2018 budget includes the 
funding needed for programs that address our nation's immediate 
security needs, and supports the dedicated men and women of 
this Department as they execute DHS's wide-ranging and critical 
missions.
    Question. Secretary Kelly, one final comment. The 
President's budget contains new authority for the Departments 
of Justice and Homeland Security to deny grants to 
jurisdictions that do not honor ICE detainers and other demands 
for information. If local law enforcement officials believe 
that by doubling as immigration police it will deter victims in 
their communities from coming forward--like domestic violence 
victims, rape victims--then we should take those concerns 
seriously. A number of local governments have made a considered 
decision that having their community police officers act as de 
facto immigration agents undermines trust in their communities. 
And one thing I can tell you with certainty: Taking away public 
safety grants from cities like New York and Los Angeles--
including critical law enforcement support and resources to 
prevent terrorism--will not make our cities safer. Quite the 
opposite.
    Answer. The fiscal year 2018 Budget and its accompanying 
Congressional Justification explain that DHS and the Department 
of Justice ``. . . may condition a grant . . . for a purpose 
related to immigration, national security, law enforcement, or 
preventing, preparing for, protecting against or responding to 
acts of terrorism, on a requirement that the recipient of the 
grant . . . agrees that it will . . .'' cooperate with Federal 
authorities on issues relating to the enforcement of our 
nation's immigration laws.
    DHS is committed to maintaining and strengthening its 
relationships with local law enforcement. DHS continues to 
collaborate with all law enforcement agencies to help ensure 
that individuals who may pose a threat to our communities are 
not released onto the streets to potentially reoffend and harm 
others living within our communities.

              Questions Submitted by Senator Patty Murray

    Question. On Tuesday, June 6, 2017 the Department announced 
that all extension decisions would be undergoing final review 
and that a determination would be made prior the expiration of 
a previously-announced ``grace period'' lasting from June 7, 
2017, through July 10, 2017. Simultaneously the Department 
declared that ``Secretary Kelly is considering extensions 
within the broader context of the current threat environment 
and the need to have secure forms of identification for 
accessing Federal facilities and boarding commercial aircraft. 
He believes the time has come for full implementation and is 
firmly committed to enforcing the law.'' As you are aware, 
Washington state repealed its principle statutory barrier to 
complying with REAL ID earlier this year and is currently 
overhauling its licensing systems and processes to fully meet 
REAL ID requirements. As you move forward with your final 
review of compliance extension requests, I ask that you clarify 
the following:
    What criteria are being used to evaluate whether an 
individual extension requests merits approval?
    Please provide the full list of criteria.
    Are the criteria being used to evaluate extension requests 
consistent with those used in the past?
    Do the non-REAL ID-related immigration enforcement policies 
of states seeking extension requests, and their constituent 
municipalities, factor in to the evaluation of approving these 
requests?
    What specific changes to the threat environment occurred 
between January 20, 2017 and today that merited further review 
of extension requests?
    What kind of advance notice will the Department provide 
states regarding their pending extension requests?
    Answer. DHS criteria for granting full extensions to states 
for the October 2016-2017 period are threefold:
  --A statement from the highest level executive state official 
        overseeing the state's Driver Licensing Authority that the 
        state has the legal authority to meet the standards of the REAL 
        ID Act and implementing regulation;
  --A commitment by the state official overseeing the state's Driver 
        Licensing Authority that the state commits to meet all the 
        standards of Subparts A through D of the REAL ID Final Rule (6 
        C.F.R. 37); and
  --A timetable for when the state plans to begin to issue REAL ID 
        compliant documents in conformance with the standards of 
        Subparts A through D of the REAL ID Final Rule.
    For the October 2016-2017 period DHS also granted limited 
extensions ending June 6, 2017 for states that:
  --Did not meet the standards for full extensions, but where the 
        governor and legislative leaders committed to finding a 
        legislative solution during the 2017 session or;
  --Previously sought a determination of full compliance from DHS but 
        did not meet the criteria for a 1 year extension.
    The full list of standards is enumerated in Subparts A through D of 
the REAL ID Final Rule (6 C.F.R. 37). If the state plans to issue both 
compliant and noncompliant documents, then it must also meet the 
standards of Subpart F of the Final Rule.
    The criteria for granting extensions have been gradually increased 
since 2013. States were previously granted extensions that did not or 
were unable to meet all of the standards of Subparts A through D of the 
REAL ID Final Rule. The October 2016-2017 was the first cycle of 
extensions where states were required to commit to meet all of the REAL 
ID requirements.
    Non-REAL ID related immigration enforcement polices of states are 
not considered in DHS evaluations of state requests for extensions from 
the REAL ID compliance deadline.
    The Secretary may grant to a State an extension of time to meet the 
requirements of the REAL ID Act if the State provides adequate 
justification for noncompliance. In his testimony to Congress former 
Secretary Kelly noted that ``in recent years, we have witnessed an 
unprecedented spike in terrorist travel'' and that REAL ID ``is a 
critically important 9/11 Commission recommendation'' and that he would 
``ensure it is implemented on schedule--with no extension--for states 
that are not taking it seriously.''
    DHS provides advance notice by email and/or telephone to states 
regarding the status of their pending extension requests.
    Question. As you know, the Department of Homeland Security (DHS) 
and the Department of Labor (DOL) have long had a Memorandum of 
Understanding (MOU) to ensure that the two departments' worksite 
enforcement activities do not conflict. The U.S. Equal Employment 
Opportunity Commission (EEOC) and the National Labor Relations Board 
(NLRB) are also party to the MOU. The MOU recognizes the importance of 
enforcing both labor and immigration laws, including the enforcement of 
labor laws to ``ensure proper wages and working conditions for all 
covered workers regardless of immigration status.'' Immigration and 
Customs Enforcement (ICE) committed itself in the MOU ``to be alert to 
and thwart attempts by other parties to manipulate its worksite 
enforcement activities for illicit or improper purposes'' and to assess 
``whether tips and leads it receives concerning worksite enforcement 
are motivated by an improper desire to manipulate a pending labor 
dispute, retaliate against employees for exercising labor rights, or 
otherwise frustrate the enforcement of labor laws.'' However, recent 
news stories have raised concerns that ICE may be violating the terms 
and spirit of the MOU. It seems that ICE may have received a tip from 
an employer wishing to avoid paying an alien employee his just 
compensation for sustaining an injury on the job that required multiple 
surgeries. The worker was told by his employer to meet him at a given 
time and place to receive his compensation--and ICE received a tip on 
when and where the agency could find the worker in order to detain him. 
ICE was waiting for the worker and arrested him. These facts seem to 
indicate that ICE is not going through the deconfliction steps that the 
agency has committed itself to completing to ensure that an employer 
does not provide tips to manipulate ICE into thwarting workers' 
attempts to exercise their labor rights. Therefore, I would like you to 
provide information on that status of ICE's compliance with the terms 
of the MOU. Specifically:
    In cases similar to the one highlighted in a recent news story on 
Jose Flores (see http://www.wbur.org/news/2017/05/17/ice-arrest-
workers-comp), what steps does ICE take to satisfy the requirements of 
the MOU and ensure it was not being used by an employer to thwart 
workers' labor rights, including their right to workers' compensation?
    Is it still the policy of DHS to follow the terms of the MOU?
    Have there been any changes to the MOU as it existed on January 19, 
2017?
    What deconfliction process is ICE currently engaging in to ensure 
it is not being manipulated into thwarting the labor rights that 
Congress provided to workers?
    Please describe in detail what DHS is doing to deconflict with each 
agency party to the MOU, including DOL, EEOC, and NLRB to ensure it is 
not aiding in the violation of workers' rights. Does ICE have any 
guidance directing its officers on such deconfliction processes?
    Please provide my staff with a copy of any such agency guidance.
    Answer. To satisfy the requirements of the MOU, ICE currently de-
conflicts with the Department of Labor (DOL), National Labor Relations 
Board (NLRB), and the Equal Employment Opportunity Commission (EEOC) 
prior to initiating an employment eligibility verification Form I-9 
inspection. ICE has also issued guidance to the field offices on 
conducting civil inspections of the employment eligibility verification 
form I-9 during labor disputes.
    Yes, it is still ICE policy to follow the terms of the MOU and 
there have been no changes to the MOU as it existed on January 19, 
2017.
    ICE currently de-conflicts with the DOL, NLRB and the EEOC prior to 
initiating an employment eligibility verification Form I-9 inspection. 
ICE sends the name and address of a business we are preparing to 
inspect to the DOL which, in turn, coordinates with NLRB and EEOC in an 
attempt to ensure one agency does not initiate an investigation that 
might compromise another agency's ongoing investigation. If DOL, NRLB, 
or EEOC notifies ICE of an ongoing investigation, ICE will await 
completion of that investigation prior to initiating a civil 
inspection, ICE has also encouraged communication at the local level 
between ICE field offices and the Federal labor agencies who are 
partners in the MOU.
    On May 10, 2016, ICE issued guidance on civil inspections of the 
employment eligibility verification form I-9 during labor disputes, and 
ICE policy regarding immigration enforcement that may impact workers 
attempting to exercise workplace rights. A copy of the guidance will be 
provided to the subcommittee under separate cover.

                          SUBCOMMITTEE RECESS

    Senator Boozman. With that, we are adjourned.
    [Whereupon, at 12:26 p.m., Thursday, May 25, the 
subcommittee was recessed, to reconvene at a date and time 
subject to the call of the Chair.]
</pre></body></html>
